<html>
<title> - H.R. 2829, THE OFFICE OF NATIONAL DRUG CONTROL POLICY REAUTHORIZATION ACT OF 2005</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
 H.R. 2829, THE OFFICE OF NATIONAL DRUG CONTROL POLICY REAUTHORIZATION 
                              ACT OF 2005

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2829

      TO AUTHORIZE THE OFFICE OF NATIONAL DRUG CONTROL POLICY ACT

                               __________

                             JUNE 15, 2005

                               __________

                           Serial No. 109-73

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
23-688                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
        Nicholas Coleman, Professional Staff Member and Counsel
                           Malia Holst, Clerk
                     Tony Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 15, 2005....................................     1
Text of H.R. 2829................................................     8
Statement of:
    Carr, Tom, Director, Washington-Baltimore HIDTA, on behalf of 
      the National HIDTA Directors' Association; and Stephen J. 
      Pasierb, president and CEO, Partnership for a Drug-Free 
      America....................................................   137
        Carr, Tom................................................   137
        Pasierb, Stephen J.......................................   145
    Walters, John, Director, Office of National Drug Control 
      Policy.....................................................   106
Letters, statements, etc., submitted for the record by:
    Carr, Tom, Director, Washington-Baltimore HIDTA, on behalf of 
      the National HIDTA Directors' Association, prepared 
      statement of...............................................   140
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    96
    Pasierb, Stephen J., president and CEO, Partnership for a 
      Drug-Free America, prepared statement of...................   148
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5
    Walters, John, Director, Office of National Drug Control 
      Policy, prepared statement of..............................   110
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................   104


 H.R. 2829, THE OFFICE OF NATIONAL DRUG CONTROL POLICY REAUTHORIZATION 
                              ACT OF 2005

                              ----------                              


                        WEDNESDAY, JUNE 15, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3 p.m., in 
room 2247, Rayburn House Office Building, Hon. Mark Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Mica, Gutknecht, Cummings, 
Norton, and Watson.
    Staff present: Nicholas Coleman, professional staff member 
and counsel; Michelle Gress, counsel; David Thomasson, 
congressional fellow; Malia Holst, clerk; Tony Haywood, 
minority counsel; and Jean Gosa, minority assistant clerk.
    Mr. Souder. The subcommittee will come to order.
    Good afternoon, and thank you all for coming. We should be 
able to get through our hearing now without any more votes. 
Thank you for your patience, Director Walters, and all the 
others who are testifying today. Today's hearing assesses and 
addresses H.R. 2829, the Office of the National Drug Control 
Policy Reauthorization Act of 2005, which I introduced along 
with Chairman Davis of the full committee.
    Two years ago, Chairman Davis and I introduced the Office 
of National Drug Control Policy Reauthorization Act of 2003, 
which the committee adopted and the House passed unanimously. 
Regrettably, the Senate did not act on its version of the bill, 
meaning that reauthorization had to wait until the 109th 
Congress.
    This time around, we have kept many of the reforms first 
introduced in the 2003 bill. However, we have made some 
significant changes to the earlier act, as a result of two main 
considerations.
    First, we have attempted, to the greatest extent possible 
consistent with our subcommittee's basic policies, to harmonize 
the House and the Senate bills from the last Congress. While we 
do not expect that the two chambers will pass identical bills, 
I do hope that we can pave the way for initial passage and a 
successful conference by reaching at least the broad outlines 
of a compromise. I look forward to working with our Senate 
colleagues in that endeavor.
    Second, our subcommittee's hearings and other oversight 
activities since 2003 indicate that further reforms are 
necessary for ONDCP to fully achieve the goals that Congress 
intended for it in 1988. ONDCP's reports to Congress on the 
progress of drug control policies, its interactions with other 
agencies, and its management of its own programs all need to be 
improved. This bill attempts to strengthen, not weaken, the 
office and its programs.
    At the outset, it is important to understand that ONDCP is 
a very unique institution within the Federal Government. 
Although it is situated within the Executive Office of the 
President, it is not simply a political arm of the White House. 
If that were all that Congress wanted from ONDCP, there would 
have been no reason to establish the office by statute.
    What Congress wanted instead was an office that would not 
only assist the President, but would also be responsible to 
Congress to account for the Federal Government's progress in 
drug policy. That is why Congress created the drug budget 
certification process, for example, as well as other oversight 
tools.
    From the beginning, then, the Director has had to serve two 
masters--the President and the Congress. That is not an easy 
task, and that dual responsibility must be kept in mind when 
reviewing our bill and the administration's response to it. 
Neither this nor any administration is ever going to be 
entirely happy with how Congress shapes the office, since what 
Members think of as oversight is typically seen as interference 
by an administration. That is normal in a government with 
checks and balances.
    Having said that, I would like to address several key 
sections of the bill that have been singled out for criticism 
by the administration. First, the administration opposes the 
bill's mandate that the annual drug budget report prepared by 
ONDCP for the Congress include all Federal drug control 
activities proposed by the President. Since 2002, the 
administration has tried, to the greatest extent possible, to 
limit the activities included in that budget to those that have 
a separate line item account and are exclusively dedicated to 
drug control.
    I understand the motivation behind the administration's 
shift, and I know that the office was trying to make the budget 
easier to read and simpler to manage. However, in practice this 
policy was never consistently implemented. Many activities were 
included, such as interdiction by the Coast Guard and legacy 
Customs Service, that were not exclusively dedicated to drug 
control.
    Moreover, the new budget guidelines left out many 
activities that the average citizen would think of as drug 
control, such as the cost of prosecuting and incarcerating drug 
traffickers in Federal prisons. This led many critics, 
including our full committee Ranking Member Henry Waxman, to 
charge that by excluding these items the new budget 
artificially inflated the proportion of the drug control budget 
going to treatment and prevention, as opposed to enforcement.
    I believe that, if we are going to err on one side or the 
other, we should err on the side of inclusiveness. The primary 
purpose of the drug budget required by Congress is to inform 
Congress and the public about how much the administration is 
proposing to spend on drug control. The bill does not call on 
the office to include activities with only tangential 
connection to drug policy, but it does require that all drug 
control activities defined in the act be included. We need a 
drug budget that attempts to be complete, rather than a budget 
that is open to the charge, however unfair it may be, of 
political manipulation.
    Second, ONDCP apparently is not going to fight too hard for 
its earlier proposal to remove the High Intensity Drug 
Trafficking Areas [HIDTA], program to the Department of 
Justice. However, it is criticizing the provision in the bill 
that would require the administration to submit a separate 
budget request for each individual HIDTA.
    If ONDCP actually had the discretion to shift resources 
among the HIDTAs, this criticism would have greater force. As 
it is, however, every appropriations bill since the late 1990's 
has required level funding for each individual HIDTA, meaning 
that ONDCP has no real discretion over 90 percent of the 
program budget.
    The 2003 House bill tried to remedy this problem by 
requiring ONDCP to allocate resources through a ranking system, 
based on relative importance to the national drug threat. It 
quickly became clear, however, that the Senate would not agree 
to that system, and it was opposed by many of the HIDTAs and 
their supporters in Congress. This time around, we have adopted 
the Senate proposal to require individual HIDTA budget 
requests. Is this the best possible solution? No. But I believe 
it is the only politically possible way to break this 
appropriations logjam.
    Finally, I would like to address a concern raised by both 
ONDCP and the Partnership for a Drug-Free America about the 
Media Campaign. Specifically, the administration and the 
Partnership have opposed a provision in the bill that would 
require at least 82 percent of the campaign's Federal dollars 
to be spent on the purchases of time and space for anti-drug 
advertising, if the campaign's budget falls below $125 million. 
If the budget is above $125 million, this floor would only be 
77 percent.
    Last time around, ONDCP did not have much of a problem with 
this provision because the campaign's budget was $145 million 
and the Senate was proposing an 80 percent minimum floor, 
regardless of the budget size. Now, however, the program's 
budget has fallen to $120 million, meaning that the 82 percent 
floor would apply. ONDCP argues that this would force the 
campaign to abandon its efforts to do Internet advertising and 
other, less traditional media activities.
    Anyone who has followed my career knows that I have fought 
to strengthen the campaign and get it sufficient funding. If 
the dollars were there, I would have no problem seeing some of 
them spent on new media. But we included the 82 percent minimum 
for a reason. The original intent and the primary purpose of 
the campaign is to get anti-drug ads on the air. When the 
budget is shrinking and the advertising costs are going up, 
diversifying into other areas, however great their future 
potential, just is not feasible.
    Furthermore, I would have more sympathy if the 
administration had actually requested more than $120 million 
for the campaign this year. If ONDCP wants the campaign to do 
more, it should start by fighting for more dollars. At some 
point, shrinking budgets are going to make this campaign 
totally ineffective. That day will only be hastened if the 
campaign tries to take on more responsibilities than its budget 
will allow.
    Although the bill we are considering today was technically 
sponsored by Chairman Davis and me, it is also the product of 
the work of many interested parties who we consulted in 
drafting legislation. It includes the Dawson Family Community 
Protection Act proposed by the distinguished ranking member of 
this subcommittee, Mr. Cummings. It includes a number of 
changes to current law requested by Director Walters and the 
administration. And it incorporates suggestions and ideas from 
other committees and Members of Congress and key outside groups 
including the Community Anti-Drug Coalitions of America, drug 
treatment providers, the Partnership for Drug Free America, the 
Ad Council, and members of Federal, State, local, and tribal 
law enforcement participating in the HIDTA and CTAC programs, 
including the DEA.
    I thought it was important, however, for the subcommittee 
to hear from the primary organizations that would be affected 
by the bill, and for that reason I asked Chairman Davis for the 
opportunity to hold this hearing before tomorrow's markup. I 
very much appreciate the willingness of our three witnesses to 
join us today to discuss the bill.
    We welcome Director John Walters of ONDCP; Director Tom 
Carr of the Washington-Baltimore HIDTA, testifying on behalf of 
the National HIDTA Directors Association; and Mr. Steve Pasierb 
of the Partnership for Drug-Free America. We thank everyone for 
joining us, and look forward to your testimony.
    I would now like to yield to Ranking Member Mr. Cummings.
    [The prepared statement of Hon. Mark E. Souder and the text 
of H.R. 2829 follow:]

[GRAPHIC] [TIFF OMITTED] T3688.001

[GRAPHIC] [TIFF OMITTED] T3688.002

[GRAPHIC] [TIFF OMITTED] T3688.003

[GRAPHIC] [TIFF OMITTED] T3688.034

[GRAPHIC] [TIFF OMITTED] T3688.035

[GRAPHIC] [TIFF OMITTED] T3688.036

[GRAPHIC] [TIFF OMITTED] T3688.037

[GRAPHIC] [TIFF OMITTED] T3688.038

[GRAPHIC] [TIFF OMITTED] T3688.039

[GRAPHIC] [TIFF OMITTED] T3688.040

[GRAPHIC] [TIFF OMITTED] T3688.041

[GRAPHIC] [TIFF OMITTED] T3688.042

[GRAPHIC] [TIFF OMITTED] T3688.043

[GRAPHIC] [TIFF OMITTED] T3688.044

[GRAPHIC] [TIFF OMITTED] T3688.045

[GRAPHIC] [TIFF OMITTED] T3688.046

[GRAPHIC] [TIFF OMITTED] T3688.047

[GRAPHIC] [TIFF OMITTED] T3688.048

[GRAPHIC] [TIFF OMITTED] T3688.049

[GRAPHIC] [TIFF OMITTED] T3688.050

[GRAPHIC] [TIFF OMITTED] T3688.051

[GRAPHIC] [TIFF OMITTED] T3688.052

[GRAPHIC] [TIFF OMITTED] T3688.053

[GRAPHIC] [TIFF OMITTED] T3688.054

[GRAPHIC] [TIFF OMITTED] T3688.055

[GRAPHIC] [TIFF OMITTED] T3688.056

[GRAPHIC] [TIFF OMITTED] T3688.057

[GRAPHIC] [TIFF OMITTED] T3688.058

[GRAPHIC] [TIFF OMITTED] T3688.059

[GRAPHIC] [TIFF OMITTED] T3688.060

[GRAPHIC] [TIFF OMITTED] T3688.061

[GRAPHIC] [TIFF OMITTED] T3688.062

[GRAPHIC] [TIFF OMITTED] T3688.063

[GRAPHIC] [TIFF OMITTED] T3688.064

[GRAPHIC] [TIFF OMITTED] T3688.065

[GRAPHIC] [TIFF OMITTED] T3688.066

[GRAPHIC] [TIFF OMITTED] T3688.067

[GRAPHIC] [TIFF OMITTED] T3688.068

[GRAPHIC] [TIFF OMITTED] T3688.069

[GRAPHIC] [TIFF OMITTED] T3688.070

[GRAPHIC] [TIFF OMITTED] T3688.071

[GRAPHIC] [TIFF OMITTED] T3688.072

[GRAPHIC] [TIFF OMITTED] T3688.073

[GRAPHIC] [TIFF OMITTED] T3688.074

[GRAPHIC] [TIFF OMITTED] T3688.075

[GRAPHIC] [TIFF OMITTED] T3688.076

[GRAPHIC] [TIFF OMITTED] T3688.077

[GRAPHIC] [TIFF OMITTED] T3688.078

[GRAPHIC] [TIFF OMITTED] T3688.079

[GRAPHIC] [TIFF OMITTED] T3688.080

[GRAPHIC] [TIFF OMITTED] T3688.081

[GRAPHIC] [TIFF OMITTED] T3688.082

[GRAPHIC] [TIFF OMITTED] T3688.083

[GRAPHIC] [TIFF OMITTED] T3688.084

[GRAPHIC] [TIFF OMITTED] T3688.085

[GRAPHIC] [TIFF OMITTED] T3688.086

[GRAPHIC] [TIFF OMITTED] T3688.087

[GRAPHIC] [TIFF OMITTED] T3688.088

[GRAPHIC] [TIFF OMITTED] T3688.089

[GRAPHIC] [TIFF OMITTED] T3688.090

[GRAPHIC] [TIFF OMITTED] T3688.091

[GRAPHIC] [TIFF OMITTED] T3688.092

[GRAPHIC] [TIFF OMITTED] T3688.093

[GRAPHIC] [TIFF OMITTED] T3688.094

[GRAPHIC] [TIFF OMITTED] T3688.095

[GRAPHIC] [TIFF OMITTED] T3688.096

[GRAPHIC] [TIFF OMITTED] T3688.097

[GRAPHIC] [TIFF OMITTED] T3688.098

[GRAPHIC] [TIFF OMITTED] T3688.099

[GRAPHIC] [TIFF OMITTED] T3688.100

[GRAPHIC] [TIFF OMITTED] T3688.101

[GRAPHIC] [TIFF OMITTED] T3688.102

[GRAPHIC] [TIFF OMITTED] T3688.103

[GRAPHIC] [TIFF OMITTED] T3688.104

[GRAPHIC] [TIFF OMITTED] T3688.105

[GRAPHIC] [TIFF OMITTED] T3688.106

[GRAPHIC] [TIFF OMITTED] T3688.107

[GRAPHIC] [TIFF OMITTED] T3688.108

[GRAPHIC] [TIFF OMITTED] T3688.109

[GRAPHIC] [TIFF OMITTED] T3688.110

[GRAPHIC] [TIFF OMITTED] T3688.111

[GRAPHIC] [TIFF OMITTED] T3688.112

[GRAPHIC] [TIFF OMITTED] T3688.113

[GRAPHIC] [TIFF OMITTED] T3688.114

[GRAPHIC] [TIFF OMITTED] T3688.115

[GRAPHIC] [TIFF OMITTED] T3688.116

[GRAPHIC] [TIFF OMITTED] T3688.117

[GRAPHIC] [TIFF OMITTED] T3688.118

[GRAPHIC] [TIFF OMITTED] T3688.119

    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank you for holding this important hearing today with regard 
to H.R. 2829, legislation to reauthorize the Office of National 
Drug Control Policy.
    During the 108th Congress, the Government Reform Committee 
reported on a bipartisan basis and the House passed H.R. 2086. 
Like H.R. 2086, the bill before us would reauthorize the Office 
of National Drug Control Policy and three key programs 
administered by ONDCP--the High-Intensity Drug Trafficking 
Areas program, the Counterdrug Technology Assessment Center, 
and the National Youth Anti-Drug Media Campaign. ONDCP, HIDTA, 
CTAC, and the Media Campaign all play an important part in 
America's overall anti-drug policy coordinated by the ONDCP and 
they deserve to be reauthorized. Because the Senate did not 
pass similar legislation during the 108th Congress, we are 
starting all over anew.
    Let me say from the outset that I believe that H.R. 2829 is 
a stronger bill than its predecessor. This is a bill that will 
strengthen ONDCP, its component programs, and our overall anti-
drug effort by providing increased interagency communication 
and cooperation, enhanced program and contractor 
accountability, and continuous evaluation of anti-drug programs 
and initiatives to let the administration, Congress, and the 
American people know, in objective terms, what approaches are 
working and what needs to be improved or rethought.
    The bill is bipartisan in spirit to the extent that it 
preserves key compromises reached last Congress through 
negotiations between the committee's majority and minority on 
H.R. 2086. Most notably, this bill would disallow the use of 
any funding for the Media Campaign for partisan political 
purposes, or to affect the outcome of electoral or regulatory 
decisions.
    H.R. 2829 also carries forward key bipartisan provisions in 
H.R. 2086 that I strongly supported, including the Dawson 
Family Community Protection Act. This legislation, which I 
reintroduced with Chairman Souder earlier this year, would 
annually provide at least $5 million in HIDTA funds to support 
neighborhood safety and community cooperation with police in 
areas severely affected by violent drug trafficking activity. I 
sincerely appreciate the chairman's inclusion of the Dawson 
provisions in H.R. 2086 last Congress and in the current bill.
    The Dawson provisions underscore the importance of the 
HIDTA program, which provides vital Federal funding to support 
uniquely flexible and effective collaboration between Federal, 
State, and local agencies. H.R. 2829 includes provisions to 
preserve and strengthen the HIDTA program in its current form 
and in its current location within ONDCP.
    This is in stark contrast to the administration's proposal, 
set forth in the President's fiscal year 2006 budget request, 
which would gut funding for the HIDTA program and move HIDTA to 
the Department of Justice under the Organized Crime and Drug 
Enforcement Task Force. H.R. 2829 rejects this abandonment of 
HIDTA while providing for increased cooperation with OCDETF and 
enhancement of HIDTA's performance measurement system. The bill 
provides HIDTAs the flexibility to address emergent drug 
threats within and outside current HIDTA boundaries and to 
support counter-terrorism activities, as the Director of ONDCP 
deems appropriate.
    H.R. 2829 also carries forward provisions from H.R. 2086 to 
ensure that programs to expand access to drug treatment are 
adequately supported in the Federal drug control budget, and to 
halt enforcement of the drug-free student loan provision 
against persons convicted of drug crimes prior to applying for 
Federal educational assistance.
    The bill requires ONDCP to develop comprehensive strategies 
to address the severe threats posed by South American heroin, 
Afghan heroin, the drug smuggling across the Southwest border, 
in addition to calling for a comprehensive strategy for sharing 
and coordinating counterdrug intelligence.
    H.R. 2829 authorizes CTAC's technology transfer program, 
which provides valuable support to State and local enforcement 
programs. The bill also provides for increased coordination of 
interdiction assets and efforts through its definition of the 
duties and activities of the U.S. interdiction coordinator and 
interdiction committee.
    With regard to the Media Campaign, the bill authorizes 
increased funding in line with the program's original 
authorization, recognizes pro bono advertising as the program's 
central component, provides for greater contractor 
accountability, requires testing and evaluation of ads before 
they appear on the air, and requires an independent evaluation 
of the campaign's impact on preventing and reducing illicit 
drug use by our youth.
    Mr. Chairman, illegal drugs continue to exact an enormous 
toll on American society in the form of lives lost, families 
destroyed, communities decimated, and human promise wasted, not 
to mention the immense costs to our health care system and lost 
economic productivity and potential. I see this heartbreaking 
scenario play out every day in my own neighborhood and in the 
surrounding communities in Baltimore City and Howard County 
that I represent. Nationwide, according to ONDCP, approximately 
26,000 lives were lost to drugs just last year. This is simply 
intolerable and our Nation's drug strategy must aim to reduce 
this number sharply. I believe that H.R. 2829, if enacted, will 
move us in the right direction.
    We are joined today by the Director of the National Drug 
Control Policy, the Honorable John Walters; the president and 
CEO of the Partnership for a Drug-Free America, Mr. Steve 
Pasierb; and Mr. Thomas Carr, director of the Washington-
Baltimore HIDTA program, who appears on behalf of the National 
HIDTA Directors Association. I welcome their views on the 
merits of this legislation and how it will affect their 
organizations' contributions to the national anti-drug effort.
    Finally, I want to commend you, Mr. Chairman, for your 
leadership in crafting the legislation before us. I also want 
to thank the witnesses for their unrelenting efforts to reduce 
the harm that drugs inflict on our society every day, and for 
their willingness to appear before our subcommittee today.
    And with that, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T3688.004

[GRAPHIC] [TIFF OMITTED] T3688.005

[GRAPHIC] [TIFF OMITTED] T3688.006

[GRAPHIC] [TIFF OMITTED] T3688.007

[GRAPHIC] [TIFF OMITTED] T3688.008

[GRAPHIC] [TIFF OMITTED] T3688.009

[GRAPHIC] [TIFF OMITTED] T3688.010

    Mr. Souder. Thank you. Ms. Watson, do you have any opening 
statement?
    Ms. Watson. Thank you also, Mr. Chairman, for holding this 
most important hearing on a bill that has major short and long-
term implications on our Nation's communities. The 
reauthorization of the Office of National Drug Control Policy 
is part of a many step process that this Congress must take in 
helping eliminate drugs on our streets.
    As we all know, the drug problem in the United States is of 
major concern to everyone. Areas surrounding my congressional 
district and many jurisdictions throughout the State of 
California are considered as High Intensity Drug Trafficking 
Areas. Drugs are the root cause of a significant amount of 
criminal activity nationwide and positive efforts to eliminate 
the drug trafficking and use should be at the forefront of all 
of our agendas.
    The Office of National Drug Control Policy with its 
immediate supervision of the National Youth Media Anti-Drug 
Campaign, the Counterdrug Technology Assessment Center, and the 
Drug-Free Communities program is an essential part of combating 
the drug problem in this Nation. These efforts are essential in 
improving community safety and cooperation in areas severely 
affected by violent drug trafficking activities.
    Thanks to the witnesses and their willingness to come and 
testify in order for all of us to understand the dire need for 
an Executive Office of National Drug Control Policy. This 
subcommittee, I am sure, will do everything in its power to 
help reauthorize this most important entity to fight the 
rampant drug problem in these United States. I want you to 
please continue in your diligent efforts in fighting the war on 
drugs and removing this poison from our communities.
    Thank you, and I yield back, Mr. Chairman.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T3688.011
    
    [GRAPHIC] [TIFF OMITTED] T3688.012
    
    Mr. Souder. Thank you very much.
    I ask unanimous consent that all Members have 5 legislative 
days to submit written statements and questions for the hearing 
record, and that all answers to written questions provided by 
the witnesses also be included in the record. Without 
objection, it is so ordered.
    I also ask unanimous consent that all exhibits, documents, 
and other materials referred to by Members may be included in 
the hearing record, and that all Members be permitted to revise 
and extend their remarks. Without objection, it is so ordered.
    Our first panel is composed of the Honorable John Walters, 
Director of the Office of National Drug Control Policy. As you 
know, our standard procedure is to ask our witnesses to be 
sworn in. So if you will rise and raise your right hand.
    [Witness sworn.]
    Mr. Souder. Let the record show that Director Walters 
responded in the affirmative.
    I now yield to you to raise your comments, concerns, 
suggestions on the legislation.

 STATEMENT OF JOHN WALTERS, DIRECTOR, OFFICE OF NATIONAL DRUG 
                         CONTROL POLICY

    Mr. Walters. Thank you, Mr. Chairman, thank you Ranking 
Member Cummings, thank you Congresswoman Watson. I would ask 
that my written statement be entered in the record here, and I 
will just summarize a few points and comment on the issues, 
some of which have already been touched on.
    I appreciate this opportunity to discuss the progress we 
have made together. I do understand my job as helping to 
organize for the President the executive branch effort, but 
also to help with the Congress in carrying out the enactment of 
laws and the appropriation of money. I served a long time ago 
in an administration where Dick Darman was OMB Director, and he 
used to say ``Policy without budget is just talk.'' And my 
general view is that is true.
    So it is important that we both have law and that we have 
the resources to carry out the purpose of law if we are going 
to get to where we want to be. Together, we have gotten 
enormous progress in many sectors I believe of this effort--17 
percent decline in teenage drug use since 2001; 600,000 fewer 
teenagers nationwide using illegal drugs in 2004 than in 2001.
    We have to go further and we are trying to build on that 
effort through expanding not only prevention programs, of which 
the Media Campaign is an important part, but also, as you know, 
requests for improvements and expansions of the treatment 
system of the United States, the expansion of drug courts, the 
expansion of efforts to intervene in the health system through 
screening and brief interventions, the effort to expand 
programs that involve drug testing, random testing, for the 
purposes not of punishment, but of helping to intervene and 
protect young people from use.
    My written statement discusses a variety of provisions in 
the reauthorization draft that we have concerns about. We think 
that the current authorities of the office have operated not 
only to help meet threat, but making a fundamental difference 
with Congress and with other agencies, not only the executive 
branch, but other nations, and now is not the time for change 
to those things that are working. Obviously, we want to go 
further. Obviously, we are not saying everything is perfect. 
But there are some provisions in the reauthorization bill 
which, as you know, we have concerns would take us backward.
    I know the national drug control budget is a concern for 
this committee and has been, I have testified here before and 
heard that. We believe that OMB's budget review and 
certification process is a critical instrument in focusing 
resources toward critical initiatives and supporting the 
policies as established by this Nation.
    Since ONDCP was last authorized, there has been a 
significant change to the drug budget process and what we 
believe has enhanced our ability to have truth in budgeting, to 
managing things that are really manageable and really make a 
difference, and to make sure that we are not diverted in that 
effort by efforts to say that resources that appear in the 
budget that may be connected to the drug problem are vital, 
direct, and central to making a difference in the drug problem 
when they are not.
    This proposal that we made to change the budget was 
initially communicated to the Congress in February 2002 
Strategy Documents. We did not do this secretly. It was fully 
implemented for the fiscal year 2004 budget request of the 
President that was presented at the beginning of 2003.
    Prior to this change, the drug control budget consisted of 
close to 50 budget accounts totaling $19 billion. The revised 
presentation provides a greater degree of accountability and 
allows I believe both the executive branch and the Congress to 
see what is really being spent and what the real tradeoffs are.
    We are concerned with Section 5 of the reauthorization bill 
because it would have the overall effect of returning ONDCP to 
the budget scorekeeping methodology of the past. It is not, and 
we do not want, and I know you do not want, for us not to count 
things that are really there. That is not our goal. And I know 
we may have a reasonable person's disagreement over this. But 
we want to count things that are really there, and we want not 
to be making presentations about expenditures that are not 
really manageable and directed and accountable at reducing the 
drug problem.
    I think when I last testified I mentioned that for this 
budget cycle alone--as you know, the Veterans Administration 
Hospital system is a major provider of treatment because of the 
extent of that system and the people that they reach. For this 
year, they had determined that they could reasonably add a 
number of health care costs related to individuals that come in 
for substance abuse problems.
    Given the magnitude of that system, that would have added 
half a billion dollars to what we could have scored as 
treatment money being spent by the Federal Government on anti-
drug efforts in the area of substance abuse. We elected not to 
do that because it was not really treatment funds, it was 
treating other health costs.
    Are they real, should they be treated? Of course they 
should be. But we are trying to represent what we are really 
spending on treatment, not all the other ancillary health 
benefits.
    Now if we are going to be consistent in this and we are 
going to include that half a billion dollars, of course there 
would be--I cannot even estimate at this point--massive sums in 
other Government health care expenditures that we could develop 
formulas to reasonably score as a portion of what we are 
spending on drug control. The reason for not doing that is not 
to not present the cost, as you know, we provide a report that 
estimates the real cost of the drug problem. The reason for 
that is to make sure that you can see and we can see what is 
really being spent on drug treatment.
    We have asked for another $50 million to the $2 billion we 
are spending in the block grant. I am not sure we are going to 
get that. But that is real treatment money and let us argue 
over that and how well the treatment system is working. If we 
inflate that number because of the categorization of costs 
rather than expenditures, we are going to end up with a 
misleading debate, less accountability, and I believe less 
ability to manage resources.
    Let me just touch on one other issue, because I know we are 
pressed for time. We are concerned about Section 11 and the 82 
percent requirement for the youth anti-drug Media Campaign 
purchasing on advertising time and space when the appropriation 
drops below $125 million. I know members of this committee have 
been making efforts with us over the last several years to 
increase and maintain the Media Campaign.
    Despite those efforts and our best efforts meeting with 
appropriators, and many of you have joined me in that effort, 
the campaign has taken consistent reductions from the 
President's request. Congress has not met the President's 
request year after year after year and we have had a ratcheting 
down of the resources for this campaign.
    We have now asked for level funding because in the tight 
budget climate I think it was reasonable for us and my 
colleagues to say why not first get what we request before we 
start seeking more money that we are not going to get and 
create an expectation that is unreasonable. That is a fair 
assessment, I believe.
    The problem with the 82 percent as we see it from running 
the program is it is not that we are using the additional money 
to go after what may be important media subsequently. Today, 
more children, the teenagers we are trying to target, spend 
time on the Internet. If you want to get their time, attention, 
their brains focused on this issue, you have to go to where 
they are. They are less on television, they are less on radio, 
they are more on the Internet. That is why businesses are doing 
exactly what we are trying to do here. That is why the best 
minds in the business have increased the percentage here.
    But that is not the only issue. The issue is not simply--
and I will take a little bit of issue with you, Mr. Chairman--
to put ads on the air, and I know you mean this. It is to put 
effective ads on the air. It is to put ads that work. That is 
why the provisions about testing and evaluation are so 
important. And we have used those provisions to put more 
powerful ads on the air. That is why the campaign is working 
better and helping to contribute to the reductions we have not 
seen in a decade.
    What we want to do is make sure there is enough money, even 
as the program drops, to continue that testing and to put fresh 
advertisements on the air, because this is still a big program, 
and to make sure that the content is there with the resources 
to prepare it. Otherwise, we are buying time for stuff that is 
stale, that does not work.
    And third, as you know, we believe very strongly that part 
of the effectiveness of this campaign has been to see that one 
size does not fit all. That we have targeted advertising that 
we have had to spend additional money to get for Africa-
American youth and parents, for Hispanic-American youth and 
parents, for Native American youth and parents, and for Asian-
American youth and parents. These are populations that have to 
be, we believe, targeted specifically because one size does not 
fit all here and we have to have sensitive and direct and 
effective advertising and advertising buying.
    All of that costs money that is outside of time and space 
requirements. I am warning, legitimately, so that we do this 
with open eyes, if you impose this limit at the current 
spending level of the campaign, we will have to gut that kind 
of advertisement. That is the probable result because we will 
not have sufficient funds to maintain the regular one-size-
fits-all advertising and to buy the special ethnic targeting 
that we are using. We believe that is a critically important 
part because we know that many of those communities have been 
disproportionately affected and continue to be by the drug 
problem.
    Last, I will just mention there are other portions of the 
reauthorization that we believe inappropriately constrain the 
President in the delegated authorities he has in a number of 
areas, not only in budget presentation, in the certification 
process that is now lodged under the President's delegation 
through the Secretary of State and I participate, as does the 
National Security Adviser in the final recommendation to the 
President. In addition, there are some others that we can talk 
about but that we have conveyed in some detail to the staff 
about those constraints.
    This is not about we think this is meddling. We think that 
the problem here is in order to effectively use the tools of 
the executive branch within the limits of the law, we need to 
have some ability to present these fairly. You will decide what 
the budget is going to be, you do every year. You will decide 
what ultimately happens with the acceptance and support of 
policy through the budget and legal process.
    What we are asking is to allow us to organize the executive 
branch so that we can present the best information to you, to 
work with you, and to bring the executive and legislative 
together effectively so that we can reduce that 26,000 people 
that die every year from drugs further as the years go ahead. I 
know that is also a goal that you share with us. And I look 
forward to working with you as this process continues.
    [The prepared statement of Mr. Walters follows:]

    [GRAPHIC] [TIFF OMITTED] T3688.013
    
    [GRAPHIC] [TIFF OMITTED] T3688.014
    
    [GRAPHIC] [TIFF OMITTED] T3688.015
    
    [GRAPHIC] [TIFF OMITTED] T3688.016
    
    [GRAPHIC] [TIFF OMITTED] T3688.017
    
    [GRAPHIC] [TIFF OMITTED] T3688.018
    
    [GRAPHIC] [TIFF OMITTED] T3688.019
    
    Mr. Souder. Thank you. I will see if Mr. Mica wants to get 
into a discussion on the certification. He was the original 
author of that language as a staffer for Senator Hawkins, and I 
helped when I was with Senator Coates. And part of the problem 
with the Secretary of State is that she, in this case, has 
other considerations in addition to drug trafficking. We are 
strong supporters of that provision and I believe it is 
necessary for your office to give that recommendation, and we 
are concerned that it has not been as aggressively enforced as 
it should be.
    But I wanted to start with a question. I was not at the 
meeting and I just want to clarify this because I was very 
upset. You suggested at a meeting that the President might 
issue a signing statement that would disavow some provisions of 
this law. Are you saying that the President when he signs a 
bill into law can choose to ignore or refuse to comply with 
elements of the law?
    Mr. Walters. We always comply with the law. The reason for 
this is to be fair with everybody so that nobody thinks that we 
were not candid, and I think we have had a reputation of 
working with your office. We may disagree. You have gotten on 
the phone, yelled at me, and we have had spirited discussions. 
We do that because we care.
    I have never had a conversation with any member of this 
committee, never had a conversation with any Member of 
Congress, House or Senate, where what they have told me is the 
problem with the policy or what we are trying to do is it is 
getting in the way of something else they want to do. The 
problem is how do we get there faster. I understand that and 
that is what we are trying to secure here.
    But there are larger issues, and what we alerted the staff 
to, and I personally alerted people to, is there are going to 
be larger issues that may be of concern to the White House that 
would impinge on Presidential prerogatives that we think may 
need to be more closely defended. So there are also areas of 
interpretation.
    One example is the language about the status of the 
Director of the Office of National Drug Control Policy. I 
understand from some of these meetings that you and maybe other 
members of the committee believe that the language does not 
direct the President to put certain people in the cabinet, 
which is not a statutory arrangement. There are people who 
have, and others may have as we look at this as this proceeds, 
another opinion, in which case they will be responding and we 
will be responding as an administration to those provisions.
    So, there are times where the ambiguity or the 
understanding of a bill at the time of signing on the part of 
the President is explained. And we may face such an issue if 
some of these provisions continue. I am not trying to be cute 
here. I am trying to say, in candor, I am trying to tell 
everybody where our position is insofar as we have been able to 
examine the provisions.
    Mr. Souder. Quite frankly, it is an impeachable offense not 
to enforce the law.
    Mr. Walters. We are not talking about that.
    Mr. Souder. And the suggestion that you believe that 
provisions in this law--for example, it does not say anything 
about the cabinet. If the President wants to add, which is not 
a provision statement, it would just be a comment, that he 
believes this law does not bind him to keep you in the cabinet, 
it is true, it does not say anything about the cabinet. What it 
says is that you have to be at a rank and status the same as a 
cabinet member, which does not mean you are in the cabinet, but 
you are of rank and status. And to deny that would be to not 
follow the law.
    And any clarification that suggests that your rank and 
status would be different, that your salary would be different 
would be a violation of law. And we cannot stand here and tell 
kids that they have to follow drug laws and then have the 
President of the United States say, oh, I get to interpret the 
law this way to try to get around it, that I am going to try to 
avoid very explicit provisions. My question is, what other 
provisions would you suggest that he would try to get around? 
We cannot prescribe the cabinet, the cabinet is a personal 
preference, but we can say rank and status.
    Mr. Walters. I do not want to start an argument about 
something I just think there does not need to be an argument 
about. Presidents for some period of time, Democrats and 
Republicans, when they sign a certain piece of legislation 
where there may be some cause for confusion have issued signing 
statements to clarify what the President understands to be the 
meaning of the bill so that there is no misunderstanding. 
Nobody has ever been impeached for that. Nobody has ever 
suggested it is an impeachable offense.
    It is a matter of making clear so that if there is any 
ambiguity, Congress could of course pass another law with a 
different view and present it to the President for signing or 
not. All I am saying is these touch on prerogatives that are 
very carefully watched by the executive branch because, as the 
Congress respects its power, the President respects his power. 
That is what the separation of power is about.
    Mr. Souder. But you are not suggesting that the 82 percent 
provision would fall in that category?
    Mr. Walters. No, sir. I do not think anyone would ever come 
close to suggesting anything like that. No, sir.
    Mr. Souder. OK. I am just trying to identify what would be 
a provision that would be something--mainly, the cabinet 
question?
    Mr. Walters. I think some of the issues--again, I do not 
want to, I think maybe the best way to do this, I do not want 
to speculate on that. We will try to keep you informed so that 
we are not accused of blind-siding you. But I also have to tell 
you that, as you know, I think sometimes the levels of 
ambiguity are a source of friction. So I think actually it is 
important for us to be clear about where we stand.
    Mr. Souder. Well we could try to clarify it in the bill if 
you would tell us what--I mean, if we included report language 
that suggested that we are not questioning the authority of the 
President to create his own cabinet, that would certainly clear 
that up.
    Mr. Walters. I think there are other measures in there that 
touch on the manner in which the President presents his budget 
that may be issues of concern by OMB. Again, I am not issuing a 
signing statement. I am not issuing a veto threat. I am not 
issuing a Presidential position before he has had that 
position. I am trying to do what I thought you wanted us to do, 
and that is work with the committee and the staff to explain 
issues that may be problems so that you know where we are and 
do not get surprised down the line.
    And if we get in a position where there is conflict, 
obviously we make more progress when we have consensus. I am 
merely stating, and I do not think it should be a surprise to 
anybody, that some of the provisions--well, again, I am in the 
President's cabinet. I have the rank that I believe the 
reauthorization law would add in the current law. I do not 
think anyone has suggested, at least I have not seen it lately, 
that we do not have appropriate execution of the law as it 
stands here regarding the Director of the Office and the 
carrying out of the office's duties.
    So I do not think this is a problem that has manifested 
itself. I understand that you have concerns about the period 
subsequent to this President and maybe this Director, as you 
probably should. But I am just saying that the more we enter 
into some of these areas, the more there could be potential 
serious administration issues that are not over drug policy but 
are over the separation of powers.
    Mr. Souder. I also wanted to ask one more question on the 
national ad campaign. Nobody disagrees that there has been more 
diversity in media. But were you suggesting that--and you have 
had substantial reductions in the national TV time because the 
costs are rising while the program has been flat--that any 
major campaign in America has been reducing their national TV 
at the rate we have been reducing this campaign?
    Mr. Walters. Well, actually, I will go back and look at the 
numbers, but off the top of my head, I do not believe we are 
actually reducing it. In fact, through a lot of hard work, I 
recognize this could be another case where no good deed goes 
unpunished, but through a lot of hard work we have more 
efficiently run the campaign. We have taken back more of the 
match. We are maintaining the reach and frequency with young 
people even on a lesser budget.
    Now I realize that weakens our argument to say, well, we 
would like to have the budget maintained or we would like to 
have the budget increased. But the fact of the matter is, yes, 
I think it is very difficult, as we have tried to warn each 
year, as you have tried to help us warn appropriators each 
year, that you cannot continue to take out roughly $20 million 
out of the program every year and take it somewhere else and 
continue to have the kind of weight we have.
    We are at the point, and I think that is why we are so 
concerned about the 82 percent is, is what we need to maintain 
is the ability to have power, to have contact with the target 
audience wherever they are in the media, we have to go where 
they are, and that is changing, and we have to be able to 
produce an array of ads that reach the groups that are needed 
to be effected here. What we are worried about, we want to put 
as much contact on the air, there is not a disagreement on 
that, we are just saying that this kind of limitation is likely 
to throw out the baby with the bath water.
    Mr. Souder. You are, in effect, wandering into incredibly 
explosive territory. I just want to say this for the record, 
that while there has been more efficiencies if you count the 
donated time, which, quite frankly, was there, it has just been 
organized differently, that I am not going to argue that 
effective ads are not important, and I am a big believer in 
market research, but the truth is that, as has been noted in 
the media, I have defended your office and the office of ONDCP 
as we have had multiple questions about the ad agency, as we 
are now having questions about the research agency. And that, 
in fact, much of this was donated prior to when we started to 
get in and have these services contracted and the argument that 
it would be more effective.
    Now we have run into problems in both categories. We have 
seen actual real time, in terms of real dollar time that we can 
buy, reduced. And you have warned, and others have warned this 
committee and other committees that there is a point where we 
reach a tipping point where we cast this whole campaign 
overboard. And that part of this 82 percent question is to say 
there is some minimal level here that if we do not get it up on 
the air, this campaign is good-bye. And that is what our 
attempt is to do. The Senate actually pushed it just as hard or 
harder. And I do not believe that this provision is going to 
change.
    Now I would like to see more dollars so that we could be 
more creative. And the people who want the more creative things 
to add to the campaign, which would be helpful, we need to get 
more dollars or find other free sources in working with the 
national media and different localized media and Internet to 
try to find creative free market ways to supplement the 
national ad campaign.
    But this was meant to reach the bulk number of buyers, to 
put the dollars there, and it is getting at a dangerously low 
level. And with the particular problems that we have been 
having already, which just keep getting compounded from my 
perspective and harder and harder to defend, it is very 
frustrating.
    Mr. Walters. I just want to say one thing. I would frame it 
differently and I think the difference is important. When I 
came on board, as you know, this campaign was not working 
effectively. Drug use was not going down. And ultimately, as 
you believe and the President believes, it is not about whether 
we try against the drug problem. That is the minimum 
requirement for public service and taking public 
responsibility, that you are going to attempt to seriously to 
the best of your ability reduce the threats to the public. The 
issue is, are we competent at reducing those threats?
    Today, with the expenditures, with the management problems 
that we faced, with the need to clean up some difficulties the 
campaign had before, and in all that, through the standing of 
many of you sitting at this table, we have built a better 
campaign that is working. We should not have this discussion in 
a false kind of atmosphere of this is not working and we have 
to get this truck that is up on blocks running again.
    This truck is driving an important dimension, if not maybe 
the most important dimension, of declines in youth drug use. 
Because the same surveys that show those declines show us that 
kids exposed to the campaign understand the dangers of drugs 
and particular drugs that we have tried to target because of 
their particular threat more aggressively, have better 
understanding, that parents are now talking to their kids more, 
that they are monitoring their kids more, and the kids say 
that.
    So this campaign is working in a way that it has never 
worked. It is successful. How do we follow through with that? I 
think we need to continue to do the reforms that we have put in 
place. That is, reach kids where they are, reach them with 
powerful messages, reach them with the right time and 
frequency. As you know, we have taken back some of the 
``match'' here and focused it on actual parallel programming of 
the same kind and the same place that is segmented.
    One of the problems with the power of the campaign, I will 
tell you from my personal experience, is when I talk to most 
Members of Congress and most adults and I even show them in 
some cases the youth ads, they are very pleasantly impressed 
but they never see them. Why do they never see them? Because we 
have such a capacity now with using the best techniques to 
target kids in target audiences because that audience is 
segmented. They do not all watch Bonanza at night together as a 
family.
    The biggest single place where people saw the ads was the 
Super Bowl because of the co-viewing and the monumental size of 
that audience. But most of the power that we are having is we 
can put these ads in a very cost-effective way in the reality 
of young people. But that reality is not the same reality as 
adults.
    So what we have to do is be able to kind of defend the 
program that is working as powerfully as it is with the 
knowledge that creates certain challenges, because it was much 
easier for everybody when they saw all the ads on the prime 
time media which adults were watching. The problem is it did 
not reach the kids and it did not have the power that we 
needed. We have all changed that.
    And I am not saying this in any facetious way or any way of 
being kind of obsequious about this, it has been a slog, you 
know that. We have met with appropriators, you have written to 
your colleagues, you have talked to people, because we are in 
the same appropriations bill that builds highways and this 
program can be turned into asphalt, and has been. This program 
has been shifted to other kinds of priorities, including the 
HIDTA program you brought up.
    Yes, we like law enforcement, we want to balance strategy. 
Law enforcement will be continuing to lock people up at young 
ages forever if we do not reduce demand. You all agree with 
that. That is what we are trying to do.
    I just ask you, this is not a trivial provision, we believe 
this will break our ability to reach minority youth, break our 
ability to have the kind of consistent power, and it is not 
tomorrow, it is because the appropriation is at this level. Now 
we are all working to try to get this appropriation to stop 
hemorrhaging, but I think we also have to be honest.
    Mr. Souder. I am just not buying that you can reach 
minority youth more through Internet than you can through 
targeted television.
    Mr. Walters. We are not reaching everybody the same way.
    Mr. Souder. That is a nice try. But I understand that we 
have a difference of opinion. We will continue to work through 
that.
    Mr. Cummings.
    Mr. Cummings. First of all, I want to thank you again for 
your service. I do just want to go back to something that the 
chairman just said. I realize that minority youth have 
dramatically increased with regard to use of the Internet, 
something that I follow very closely. As a matter of fact our 
youth in my district have probably gone about 30-35 percent in 
the last several years in the use of the Internet.
    But that is not my question. My question is more of an 
overall question with regard to ads on computers. Have we done 
some market research with regard to whether kids actually look 
at these ads? I watch my 11 year old and I do not know what ads 
she might be looking at, but she is usually focused on whatever 
she is trying to get to. And while we adults may very well kind 
of look at the ads on the side or whatever, have we done some 
research on that on kids?
    Mr. Walters. Yes.
    Mr. Cummings. I notice you made a big deal of it and I want 
to know how did you get there.
    Mr. Walters. Yes. I think that is a very important point 
and I am glad you raised it, because I was not clear about 
this. Why is Internet advertising attractive? One, because the 
kids are there and if we are going to reach them we have to go 
where they are. If they are not in front of the television, 
they are in front of the computer, running ads on the 
television does not help you.
    If they are on the computer, how do we reach them? We all 
use computers. There is a lot of stuff there you never pay any 
attention to. One of the reasons why it is extremely cost-
effective to advertise in this area is because you can pick a 
market, you can go to pages where your audience is going to be 
and you can segment it to some degree much more cost-
efficiently than you can when you buy a prime time television 
ad.
    But what you have to do is you have to have ads that people 
will click through. We can measure click-through, and we can 
measure when they click through to a Web site that then has 
additional information how much time they spend on that Web 
site, how many other pages that they use. We use the commercial 
services that provide advertising monitoring here; it is not my 
office. We have a very high for the market click-through rate 
for this audience, and we have them spending more time on the 
Web sites.
    Now, I want to raise that particular issue. It costs more 
to make those ads. The way you get them to click through, as I 
understand it, and we rely on experts, as you do, I know many 
of you when you use advertising in political campaigns, is 
there has to be something intriguing about that banner or about 
that thing on the screen.
    So you have to have new things, they have to be done in a 
creative way that get the target audience to click on that and 
come through. Because we are not just choosing the particular 
thing that is written, we are not choosing words, we are using 
an interaction. We want them to interact with the computer. It 
can have a much more powerful effect because then they get 
involved and they actually read more than they would if they 
were watching a television program and there may or may not be 
an ad on.
    The cost here is not tremendous but it is an important 
additional dimension of advertising in this medium, which, as I 
say, is more cost-effective, but it is more costly to kind of 
get the creative material there to bring them to the 
information. It is not just showing them in front of a screen 
that it has only got one thing on it. We are initially 
competing and we have to have a competitive advantage.
    Mr. Cummings. Let me ask you, you are in a kind of 
difficult position here with the HIDTA situation. This stuff is 
political. Let us not kid ourselves. Everybody has a HIDTA. 
Nobody wants to give it up, including me.
    Mr. Souder. I do not have one.
    Mr. Cummings. Oh, I am sorry.
    Mr. Souder. It is going to get more difficult.
    Mr. Cummings. I am sorry, Mr. Chairman.
    Well, I have one. You know how politics work, everybody 
wants to cover their own turf, and legitimately so. People have 
problems, some problems are more extensive in one HIDTA area 
than somewhere else. But the fact is, if I have a problem in my 
area, as far as I am concerned, and I am sure that is how most 
of us think, then it is a major problem because we have to deal 
with it, we hear from our constituents, we have to deal with 
all the problems that are associated with drugs.
    Now, I say all that to say that the probability is that no 
matter what happens there are going to be HIDTAs. I am just 
wondering how do you then deal with that? Because I am trying 
to project in the future. I know the chairman asked you about 
issues as to things that might be in your prerogative and all 
that. I am not there. I am sure that does not fall with that. I 
am just asking how do you deal with that considering all of the 
effort that you all have made to kind of change that landscape, 
because it was major policy change, would you agree?
    Mr. Walters. Yes. The chairman accused us of not fighting 
very hard, while hard enough to get him to call me up pretty 
mad. So I was not aware that we were backing off in some kind 
of trivial way. But, yes, look, we knew when we made the 
proposal that there was going to be some pain associated with 
this. We were going to receive some, others were going to feel 
some.
    Why did we do that? Not because we do not want there to be 
aid to people who are suffering and need to be helped in terms 
of enforcement. Again, the President's budget, as you know, 
includes the elimination of over 100 programs. If we did not 
like the program and we thought it was not effective and we 
thought there was a better use for the money, we zeroed 
programs. We did not zero the HIDTA program.
    We did reduce it to try to focus on State and local law 
enforcement, and we tried to move it into an area we thought it 
could be better managed with other Federal, State, and local 
task force operations in the Justice Department. I understand 
that many people think that is a bad idea and we may not get 
it.
    I still think the merits of this are we want to focus on 
areas where there is not only benefit to individuals with this 
program that live there, but there are areas that have a 
broader implication. Baltimore-Washington, I do not think 
anybody has questions about.
    Again, to show you what I actually think is the underlying 
commonality for all this, I was going to read what I thought--
there is nothing better that sums up my view of this program 
than to say the following: ``It is easy to make a case for the 
need to send Federal assistance to the hubs of national drug 
traffic to disrupt the market and keep drugs from every city in 
America. It is much harder to make the case to take taxpayer 
money from Indiana and send it to another State if it is to be 
used mainly for local projects or is not effective.''
    Now, that was a very wise man, the chairman of this 
committee, who said that in his own testimony. I agree 100 
percent with that. And the question that we face with this 
program is how do we get it from being simply a selective 
revenue-sharing program that does not have sufficient 
accountability into something that allows us to cutoff markets 
that have spread--Baltimore-Washington, New York, other areas 
of the country. We believe we could better integrate it by 
providing accountability.
    Now the reason I do not have particular support for the 
budgeting requirement in the current draft of the 
reauthorization is, look, I admit that the current situation is 
such that we do not have accountability in the discretion of my 
office to direct money. That is a problem. We are trying to fix 
that and we would like to work with you to fix it.
    I do not think this comes close to doing it. Because when 
you have to submit individual HIDTA budgets with the 
President's budget submission, they will have to be prepared 18 
months, maybe closer to 2 years, but at least 18 to 12 months 
ahead of when they are going to be executed. That is driving 
your car through the rear view mirror. Nobody can predict in 
law enforcement where they are going to be as a result of 
enforcement operations of any significant magnitude 18 to 24 or 
12 months from now. They need to have the ability to respond to 
real threats.
    Again, we are not just funding the underlying 
infrastructure of local law enforcement with this program. We 
are trying to target major needs and cases that are going to 
have larger ramifications.
    Again, it is pretty obvious to me that the Congress has a 
problem allowing us the discretion to choose these. I do not 
know whether the solution is to look at something like allowing 
us to, with some selectivity, choose to give money to this 
program on the basis of the applications brought forth by 
designated areas or maybe even larger designated areas for 
compelling cases, have them compete, and those that have multi-
jurisdiction enforcement measures that are going to have larger 
ramifications for their particular jurisdiction or for larger 
jurisdictions, maybe tie some of it so it has to be more 
routed, maybe allow others of it to be more discretionary.
    Again, here is the underlying problem I am getting at that 
I think is of concern for you who have HIDTAs and those of you 
who do not. The problem the administration is going to have is 
a version of what you have as authorizers and that 
appropriators kind of do not have as much because of the way 
this is playing out politically. We are going to have trouble 
maintaining support for the program.
    So this pain is likely to continue year after year if the 
program one, does not demonstrate results, which we are trying 
to build into the program but is taking an awfully long time 
and is going to be still painful, and we will see whether 
people want to hear winners and losers when we have results; 
and two, that it is selective. It is a revenue-sharing program 
that is not national. It is in 28 places.
    And the question is why are those 28 places, given the 
variety of character of those places now, why are they 
selected. And in this competitive environment for State and 
local law enforcement moneys, it is very difficult to say that 
these are the places that ought to get that money when we do 
not have accountability and we do not really have a defensible 
way of defending where the moneys are located.
    So I do not want to fight with you and other Members year 
after year after year, but I feel I am in a position where if 
we are going to carry out our responsibility, we are going to 
have to say we do not think this is as competitive as some 
other things. And so then instead of moving ahead on consensus, 
we are going to be fighting over the political debate about the 
spoils of the HIDTA program.
    Mr. Cummings. So, basically, if you could sum up what you 
just said, you are trying to figure out how do we be most 
effective and efficient with the funds that we have while doing 
the kind of work that HIDTA is doing.
    Mr. Walters. Yes. I want to go back to Chairman Souder, of 
his testimony, not of the draft bill.
    Mr. Cummings. OK. Let me just ask you one other thing. You 
said something, I am always talking about efficiency and 
effectiveness, and one of the things that you talked about here 
was this whole budgeting situation. And you used just a moment 
ago in your direct testimony I think a thing about the 
Veterans' treatment.
    I think we all want truth in reporting, in budgeting. If it 
is not there, we do not want to be told that it is there 
because at some point we have to deal with that, whatever the 
fact is. But I take it that this is just a matter of where you 
place the numbers in certain budgetary documents. Is that 
right? In other words, these things are happening, it is just 
that you do not want them to be categorized the way that the 
bill is saying it should be done. Is that it?
    Mr. Walters. Yes. I want to be clear. The reason I brought 
this up and the reason I think this is more heated than it 
might be otherwise is that I believe this seriously weakens the 
power of my office. The program stuff on Media Campaign, as you 
know, I am concerned about. I do not believe, leave aside the 
executive prerogative issues which may be more separation of 
powers than applied to me, there is nothing in the bill that 
more concerns me about powering down my office's ability to do 
a job than this measure.
    That is why I made the change in the budget in the first 
place. And I will tell you why. It is very easy for both 
appropriators in Congress and budget people in the executive 
branch outside my office, when you have large things connected 
here and the issue is going to be scrutiny, how much are we 
spending on treatment, how much are we spending on prevention, 
what is the ratio of supply reduction to demand reduction, that 
becomes a huge game. The issue is, are we looking at real 
things or are we gaming ourselves?
    Once you start putting in entitlement programs and other 
kinds of things, as you know, many things are influenced by the 
cost of drugs, and if you really start putting this in there, 
one, you create a sense that we are spending all this money and 
why are we not getting more for it, but also we end up having 
an apparent focus. When I was in the administration, in 
President Bush's father's administration, we increased actual 
treatment requests and spending more than any other 
administration at that time, whether it was 4 years or 8 years.
    Every single year, as Chief of Staff, I had an enormous 
fight with the Secretary of HHS Louis Sullivan, not because he 
did not care about treatment, but because the squeeze of 
everything else he was forced to deal with in the health care 
budget meant that he had to jealously guard his resources and 
he did not want to put as much money into drug treatment as he 
did into other things, you know, WIC, and caring for people 
that are in need across the board. How did we get there? 
Because we could say that treatment number was isolated.
    As this has expanded, it has become harder to do that. That 
is why we cut it back to programs we could really manage. Now 
there are several that we cannot fully count as substantive. 
There is the Coast Guard, as was mentioned, there is the legacy 
Customs agencies, there is the Veterans Administration system, 
and there may be one or two more that I am now forgetting.
    What did we do in that case? We used the authority that the 
office has to both score a certain portion of money, but we 
also asked for spending plans that would be modelled on the 
Defense Department, which has a portion of its money but has a 
central transfer account that money comes out of so it really 
goes to drugs.
    As you get into more accounts that have smaller and smaller 
amounts, or that are not manageable, we spend all of our time 
then arguing about things that really are not central to 
reducing the problem. I do not want either somebody in the 
public or somebody in Government to be able to game us about 
this.
    So that when you look at the budget and you say, are you 
cutting prevention, we have to score what we did. We had to 
score the cut to the Safe and Drug-Free Schools program, you 
saw that up front, and I was not able to score 14 other things 
in the Department of Education, or 5 other things in HHS, or 6 
other things in other programs in other places and say it is 
not really a cut to prevention because look what we found when 
we did rescoring.
    That is what happened in the old days. I was in the Reagan 
administration, I was in other administrations. That is what 
used to happen, people found money. And they can make 
reasonable arguments about, well we should be scoring this and 
look at all these resources. But you know and I know no one is 
going to pull money which used to be scored from Head Start 
because it is not specifically categorized and put it into 
treatment programs in HHS because it is not real money. It is 
an estimate of cost, not an estimate of budget that is 
manageable.
    And we can talk about which things ought to be in here if 
you want, but the fact of the matter is I believe that in order 
to hold people accountable you have to have programs that are 
managed. Otherwise, all these things are not going to show 
results because no one is going to be able to evaluate them.
    Mr. Cummings. Let me just ask you one last question. Let me 
just tell you where I am trying to get to. If I have a million 
treatment slots, what I want to know is, assuming it is the 
same cost per treatment slot, hypothetically, just like last 
year and this year, is there an increase in treatment slots? 
Are you following what I am saying?
    Mr. Walters. Yes, sure.
    Mr. Cummings. I am asking you what method best reflects 
that, and I am assuming you are going to say yours, right?
    Mr. Walters. Partially. We cannot----
    Mr. Cummings. Do you understand what I am saying? I am 
trying to figure out, well, then, if there is some other agency 
that you do not have a lot to do with, they just so happen to 
have some money that goes for some treatment slots, I am trying 
to figure out how does that play. But I am more concerned about 
what you deal with and whether, when I look at what you deal 
with, there is a reduction in my treatment slots, or whether 
they are the same, or whether there is an increase. Do you 
follow me?
    Mr. Walters. Yes. The reason I hesitated is you picked an 
area where we have a particular problem because of the block 
grant. We are trying to build accountability into treatment. 
You have picked something else we could have had probably more 
of a metric.
    What we have done with, for example, and we have worked to 
try to change this, is we tried to create more accountability 
with the States to measure how many slots do we have, what 
slots are being used, how effective are the slots being used, 
how were they proportioned against the need. We are trying to 
get there. We are not there yet.
    What we did with the Access to Recovery money, the 
President's request for additional treatment to be used to 
follow the needs of individuals, is we asked for such a 
monitoring program. Now, the dollars are not buying treatment 
services, now the dollars are being given to trackable 
individuals in the form of reimbursable resources that the 
States then have to track it. They have to tell us how many 
people got served, they have to tell us what the cost of those 
services are, and they have to tell us whether or not those 
services were effective, there is a quality control over the 
provider, and we let people choose, and we are going to provide 
that information.
    The reason we did that is not only we wanted to have real 
expansion of capacity, but we want to see whether or not--I 
just met with people, one of the Access to Recovery grantees 
for the first $100 million is Idaho. I was just out there and 
met with people there. I think they have fantastic news. They 
believe they are doubling the number of treatment providers in 
that State as a result of the Access to Recovery program. They 
are bringing not only non-profits in, they are bringing for-
profits in that will now provide services on the basis of a 
reimbursable fee-for-service kind of arrangement we see in 
other things, with floors and minimums and standards here.
    What they are concerned about is are we going to continue 
this program, because they have had an enormous expansion of 
those providers in that State. We have done that also with one 
grant of the first 15 to a Native American group in California 
and they are expanding the number of providers dramatically. 
And that is not just the direct in-treatment service providers. 
But we know and you know, we need a continuity. We need to get 
people back in the community with housing, we need to make sure 
that they are transitioned to education and jobs. It allows a 
proportional expenditure on those things that we know make 
recovery durable.
    I think that is what is most encouraging here, and we want 
to try to do that. Again, that is what we want to talk about.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Souder. Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman, and I get to participate 
in this review of the reauthorization. Sometimes we go along 
and sort of do things almost in perpetual motion here. I did 
not get to do an opening statement, but I want to comment first 
on----
    Mr. Souder. Do you want to do an opening statement?
    Mr. Mica. No. I am going to ask some questions. It will be 
a combo. But Mr. Cummings, who is getting up, was talking about 
the HIDTAs and that they are political. I must say, with the 
HIDTA that I have in central Florida, I found the situation 
very political back in the mid-1990's. And I guess because I 
was in the minority at the time I did not get attention, and we 
had a different administration and I could not get the then 
Director to designate one in central Florida. We had record 
heroin deaths.
    So I took it to Congress and I think I got central Florida 
included by legislative fiat. Then I got a call from the press 
that said John McCain had identified my HIDTA as a pork 
project, at which point I became totally unglued, because I had 
kids dying in the street.
    So when I found out the rest of the story, as Paul Harvey 
says, I found out that when my proposal got over to the Senate 
they added two areas that really should not be HIDTAs on to it. 
And that was the reason for John's designation. I had a rather 
pointed call with John McCain at the time and he did clarify 
his position that mine was not a pork project, that it was 
needed, but the others had, for political reasons, latched on.
    What we have done over the past 15 years is added 28 to a 
program that has kind of lost its purpose. I have to say first 
of all, I had greatly admired John Walters. I do not know where 
he was, but we have needed him for some time to come and say 
that the Emperor has no clothes, because HIDTA definitely is 
out of control. It does not serve its original purpose.
    I am as guilty as anyone when they said that the 
administration is cutting HIDTAs, to sign something and we will 
protest or something. I signed it and then I started looking at 
what John had thought out and looked at. HIDTAs did not serve 
their purpose.
    And even recently it sort of rubbed me the wrong way that 
some of the HIDTAs are buying equipment and setting up little 
bureaucracies and they are getting this set amount whether or 
not the problem exists or whether we had this situation 10 
years ago or not. This needs to be corrected.
    I think, John, their proposal to shift it may make a lot of 
sense, cutting down administrative costs and duplication, but 
it does need to return to a targeted program. And I salute you 
for waking up the sleeping folks here. It has to be disturbing 
because these folks have had their snout in the trough for some 
time now and they are so accustomed to feeding at the HIDTA 
trough that they cannot see the original purpose for this. So, 
first of all, I would not give up. You are not going to give 
up, are you?
    Mr. Walters. No, sir.
    Mr. Mica. OK. You answered my question there. Then the 
other issue that was raised is the 82 percent. I think this has 
raised a great discussion because when we started out the Media 
Campaign we thought of media as the traditional media, TV and 
radio. And here again John Walters has looked at this and said, 
hey, if they are not watching this stuff--and you wonder, you 
know, we are spending a huge amount of money on these ads. What 
are we doing with this money? You have to target your audience. 
This makes a lot of sense.
    So I become concerned that we put artificial constraints. 
Now we may need some compromise that they develop a plan, 
submit it to us. I mean, you have targeted purposes you want to 
serve, Mr. Chairman. But I think what we need to do is look, 
are we reaching those audiences, and then it is not always how 
much we spend, but it is where and how we spend it.
    Do you think, Mr. Director, that we can come up with some 
compromise plan or something that could be provided to satisfy 
the Members? The problem is you did inherit a program with a 
lot of problems. It was a new program that got off on some 
tangents and had serious problems and people have genuine 
concerns for the way the money is spent. Do you think it is 
possible we could reach something that would satisfy the 
committee?
    Mr. Walters. Sure. I think some slight language changes, 
actually, just allowing the inclusion of the 82 percent toward 
services would help us have some flexibility here. What we need 
is some flexibility to maintain the things that I think 
everybody wants.
    We recently sought ads, for example, that I know both of 
your States are concerned about, in regard to meth. We did 
those through an urgent, short time contract with PDFA to 
produce those ads. We are going to hopefully have those ready 
by the end of the summer. We could not do that with the current 
budget with this kind of provision because it would not be, 
under the way this is written we believe, an allowable expense 
with the 82 percent requirement.
    So if we can add, without troubling you that we are going 
to bulk up the administrative costs, that we are going to 
maintain quality, we are going to maintain targeting, and we 
are going to maintain progress, we all want that. I am hoping 
that we can reach a consensus because I think that is when we 
move ahead, as I said, and I think so do you.
    Mr. Mica. Again, Mr. Chairman, I have seen a lot of 
bureaucrats in 24 years on the Hill in different capacities, 
and people come up from agencies and usually repeat the same 
thing or propose the same thing. I have to commend the Director 
for coming up and taking on a tough issue like the HIDTAs. And 
I am as guilty as any, but I am willing to give up mine in 
central Florida. What purpose is it now serving to continue 
that flow of money to a problem that we identified years ago.
    Now, I might have other problems, and I fought for Mr. 
Cummings who certainly has a problem. We had an intolerable 
situation in Baltimore. Part of that was that the local 
authorities would not even work with the HIDTAs. But getting 
the resources and then getting the right program together and 
then targeting it, we might do more good for Baltimore right 
now in targeting maybe Puerto Rico or some other point where 
the stuff is entering the country and the market.
    But, again, I appreciate your taking those difficult 
positions, and then also educating us on educating the public 
and those potential drug abusers. Because if we are doing the 
same thing or targeting the same thing and it is not working, 
we are making a mistake.
    The final question, I will not take as long as Mr. 
Cummings. Is he still ranking member?
    Mr. Souder. Yes.
    Mr. Mica. Good. Very good. Very good. Because he has had a 
lot of experience in this area. The final thing is maybe you 
could tell me where we are, John, on getting international 
cooperation? I helped author that language tying drug 
cooperation and we had the fully cooperating language, which I 
guess we changed to demonstrably failed in cooperation. Where 
are we now, and is the language sufficient? Is this effective, 
or do we need to do a relook at that?
    Mr. Walters. I think the language is working. And the 
reason I say that is we have had historic cooperation, as you 
know, you have been involved in some of the direct, as has the 
chairman, direct work with some of the foreign governments. It 
is not so easy in places like Colombia, but we have a unique 
partner and through that we have had remarkable progress.
    I think the difference was in the past, because of the 
variety of interests, when we tried to make the criteria so 
narrow, I think we sometimes had other interests that are 
inevitably going to be in the offing here that weakened our 
ability to be candid, frankly, about what was happening here.
    I think it is very important that we have a report every 
year about what these governments are doing. For many of the 
people in those governments, it is very important to have the 
truth be told. And they, frankly, trust the United States to 
tell the truth here, as they do in other areas.
    But I think we are now able to say, both on the one hand 
and on the other hand, and whether they are making progress and 
what they are doing, and in a way that allows those governments 
to cooperate. There were times in the past I think, frankly, 
where we had trouble and we had to say to people who needed 
encouragement----
    Mr. Mica. Are they? Mexico was on a steady increase in the 
corruption. Now we are seeing of course a change in the 
situation in Bolivia. A lot of that had gotten under control. 
But some of that was because of the fear of being decertified 
and, remember when we had that, just before decertification 
they were all over the ballpark trying to cooperate.
    Mr. Walters. Yes. I think two things happened here. One is, 
certification is obviously an important tool. You had the 
reaction to it. But also the ability to describe what is 
actually happening. Because certification could be done, as you 
know, with an explanation, even under the old criteria, where 
you would say, well, is the glass half full or half empty, and 
you would make a judgment and then you would kind of explain 
why that judgment was true, even though I think many people 
like yourself, sometimes myself, wanted to have a firmer line 
here. But there were a variety of ways.
    Ultimately we asked ourselves, how do we move things along 
and have credibility, use the pressure that the government of 
the United States with its resources and its authority have, 
and also bring these countries along. I think we are doing 
that. There are certainly problems in Mexico. But I would point 
out that the Mexicans have put more major traffickers in jail. 
They are having trouble with managing them in that situation.
    I have met with the new Attorney General just in the last 
week. But we also have capable forces now that are not perfect, 
that need to grow, that need to have roots, but are now able to 
go after some of these traffickers as never before. And I would 
say the biggest example of that, which I think is undeniable, 
is, unfortunately, the violence along the border.
    The reason that the violence is what it is at this point is 
they have destabilized major organizations and those 
organizations are fighting each other now, they are also 
fighting authorities. Unfortunately, this horrible problem 
sometimes goes through those transition points when the violent 
who are stable become destabilized and turn on each other.
    But the Mexican government is going to face the challenge 
because it has actually been moving forward of how does it move 
it to the stage where the violence and the power of those 
people decline. I do not know how much more progress President 
Fox can make here because of the near end of his term. But we 
are going to face the issue again with them of how do we move 
them forward.
    I just visited the Southwest border and I met with DEA 
personnel that we have in Mexico. We are trying to work on more 
effectively using our resources there because we think we need 
to do that. But, again, it does require partnership. I think it 
is sometimes frustrating because these governments have had 
enormous problems, and continue to have enormous problems, with 
corruption. I do not think we have a simple way of erasing all 
that, as you know.
    But I think we have to figure out how can we maximally make 
progress. How do we posture ourselves with the tools in 
legislation and with the actions of the government of the 
United States to be able to put positive forces in as strong a 
position as we possibly can. And it is mixed in some places.
    Yes, I am worried about Bolivia. I am worried about some of 
the areas. But also, again, on balance, overall production in 
the Andes of cocaine is down dramatically, across the Andes, 
overall interdiction is up dramatically because of 
effectiveness. Heroin, which is a part of the problem here in 
Washington, in Baltimore, in Chicago, heroin availability from 
South America is down 17 percent as a result of eradication and 
interdiction efforts.
    So, never before in history have we had as many movements 
on supply and demand moving in a positive direction. Our 
problem, as it is yours, is to follow through.
    Mr. Mica. Well now that we have gotten rid of the other 
side, I can ask another question. Staff is still here. They are 
monitoring very closely.
    Did I hear you say 26,000 drug over-dose deaths?
    Mr. Walters. I think that is the estimate of total deaths.
    Mr. Mica. That is continuing to rise. Because when I left 
the Chair it was about 19,000.
    Mr. Walters. I will have to check on the trend line.
    Mr. Mica. I think I heard you say 26,000.
    Mr. Walters. Yes, I did say 26,000.
    Mr. Mica. It sounds like it has not improved a whole lot. 
To some degree, it depends what you count.
    Mr. Walters. That may be. It used to be a lot of this was a 
result of, say, drug-related violence. And some of that is 
obviously still going on. Sometimes it is a result of over-dose 
deaths. Again, over-dose deaths are more common when drug 
supply is growing.
    Mr. Mica. But that drug-related violence is the people who 
are on drugs who die. That does not count the people who were 
the victims, which would probably double that number.
    Mr. Walters. Right. We also, as the chairman indicated, it 
is how you count, because we also have in the case, for 
example, of cocaine, in some cases of heroin, we have a lot of 
people who have been addicts a long time and are dying as a 
result of the higher rates of disease and debilitation caused 
by the drug. So, again, all these deaths are tragic and we want 
to stop them, that goes without saying.
    Mr. Mica. Thank you. Mr. Chairman, just to you, on this 
HIDTA thing, I really think the administration has raised some 
issues and I think we really need to look at this. Because it 
is not targeting and it is not doing what it was set up to do. 
We are spending the same money in some of the same areas. The 
accountability, to me, is lacking. And somebody has yelled 
``uncle.'' Maybe their solution is not the right way, but we 
have to find a way.
    Mr. Souder. Well, I disagree with your fundamental point. I 
think that you can argue whether the National Ad Campaign or 
the HIDTAs or local law enforcement has improved the numbers. 
We have made progress. I think we have leveraged our dollars 
more effectively than we have historically.
    Interestingly, one of the challenges in the quote that I 
was given was correct that the Director did, but what he did 
not comment was that in my area I do not have a HIDTA, I have a 
drug task force funded by Burn grants that the administration 
proposes to zero out, other people have meth Hot Spots programs 
that the administration proposes to zero out, other people have 
it funded in other categories.
    And when you looked at it holistically, what you had was a 
piecing together of some places had HIDTAs, some places had 
drug task forces, some people had them funded through COPS, 
through Burn grants, or Bureau of Justice Assistance, Chairman 
Rogers had his funded through a whole other type of program 
that he was able to fund down in Kentucky, and pretty much most 
regions of the country now have different cooperative things 
that we tried to push 10 years ago to get State, local, and 
Federal so they did not arrest each other, so they did 
information sharing.
    It was embarrassing, quite frankly, to hear the testimony 
of the Department of Justice, as well as others, say what their 
alternative was to the existing HIDTA program. They do not have 
it. They have not researched it. They had not talked to 
anybody. The national narcotics officer said not a single 
person that they had identified in the whole Nation had been 
contacted about the change. It looked to me like an attempt to 
nationalize.
    Now we had discussions about where the best place to put it 
is in the budget and how to do that. But interestingly, I think 
Director Walters ought to get a medal from the HIDTAs in the 
United States. He has done more to advance the HIDTA program in 
the past 30 days than any other individual in the United 
States. Now, that is not what his goal was.
    But in fact, we were looking at trying to figure out how to 
tinker with it, how to make changes with it, how to challenge 
it, how to concentrate on the Southwest border more, how to 
address the meth question, how to give flexibility to the 
Director's office at least in the 10 to 15 percent. But by 
going wholesale after it, what has happened now is we have more 
Members of Congress who actually met their HIDTA directors, who 
visited their HIDTAs, who the sheriffs came into their offices.
    This program is now more solidified in Congress than it has 
ever been. The chances of us changing the program are less than 
they have ever been. Our ability to modify it in legislation is 
less than it has ever been. We are going to have more people 
requesting HIDTAs than we have ever had.
    So I think Director Walters, I do not think it was his 
intention, but he gets the Gold Star for promoting the HIDTA. 
And if this was a back door way to increase the HIDTA funding 
in your agency, to increase the influence, which I do not think 
was the original----
    Mr. Walters. Mr. Chairman, you are getting mean here. We 
have had spirited discussions but you have never been mean 
before. [Laughter.]
    Mr. Mica. Again, I have no problem with funding HIDTA. I 
think HIDTA was well intended. Knowing all that, it is our 
responsibility to see that the money be properly directed. I do 
not know exactly how we do that, how we formulate it. Maybe it 
does not belong in Justice, maybe it belongs right where it is.
    But we still have a problem with directing the funds as 
they should be. And maybe someone needs to also look at the 
COPs and all the other programs. And part of what the 
administration said is we have all of these other programs, 
too, with huge administrative costs which detract from putting 
the money in the programs.
    Mr. Souder. But the funny thing is, as we got into this 
battle, to use a cowboy expression, it is all hat and no cowboy 
when you look at many of the Federal programs. The Federal 
programs that are overtly in Washington have more overhead. We 
have the most leveraged program in HIDTA. We have like 10 
percent of the dollars invested in HIDTA, whereas if we run it 
out of OCDETF, we have like a 90 percent overhead versus what 
gets to the grass roots.
    And when I came here, one of my goals was to have a mix of 
Federal, State, and local, to have partnerships to try to do 
the cooperation. Now, does that mean that there are no 
inefficiencies that we----
    Mr. Mica. But they are the same partnerships that we have 
had for 28 years. Maybe it is time to look at those, at least 
in the HIDTA. In some areas we do not have them. I am telling 
you how mine started. Mr. Cummings spoke to the politics of it. 
Is that right? And just to continue, and we are getting the 
same earmark or amount just about every year. That is not right 
and it is our job to change it.
    And I did say I never looked at this until he raised the 
issue and the administration raised the issue. I signed off on 
another letter like I always do and go on my merry way thinking 
everything is hunky-dory. But that is not the way it is, and we 
can see that.
    So we have to do a better job with the limited resources. 
Keep the administrative costs down. Same thing with the Media 
Campaign, it does not make sense to spend all that money on TV 
if the kids are not watching it on TV. Just out of curiosity, 
have I ever heard an ad on NPR?
    Mr. Walters. You might see parents' ads there. There are 
some radio ads.
    Mr. Souder. But you were one of the long time critics and 
had concerns about the way some of the national ad campaigns 
were being run. But we are in actual TV dollars, I think we 
could find quotes, we are below the minimum we said we would 
need to sustain the campaign, unless we can get this 120 up. 
Now they have leveraged it.
    Mr. Mica. Again, the fundamental question raised here, does 
it make sense to be spending as much as we have in the past if 
we are not getting the results.
    Mr. Souder. As you know, because both you and I were 
critics of the last administration when they tried to diversify 
it from the TV and they argued that they were going to 
proliferate it into all these little type of programs, we led 
efforts to keep that from occurring because, in fact, what the 
Director said here today, was that you need adequate research, 
you need to make the ads effective.
    The more places you put ads, the more studies you are 
having to do, the more you are spreading your bureaucratic 
dollars into analyzing effectiveness, media buys, production 
because you are trying to do it in 100 different places that 
you have to go bang for the buck. I am just saying this as a 
factual statement, that we are more likely, if we have a 
proliferation of locations where the ads run, to go back to 
using a total private sector development and placement rather 
than a paid one.
    I supported having the Director have the flexibility to do 
paid advertising, you being able to have an advertising agency 
outside the traditional donated services, going to paying for 
research as opposed to getting voluntary research, because I 
felt that gave additional flexibilities.
    But as the dollars in effect become frozen, even if you 
stay at $120 million, the ads are going to go up 15 percent 
this year. So it is a 15 percent real dollar reduction. And 
what happens in the course of that is the more things you try 
to do, the more percentage of overhead goes up and the 
percentage that you are putting in each of those media things 
go down.
    I am not arguing that alternative media should not be the 
case. It may be that we have to pull off television other than 
the Partnership-donated ads and go to all alternative media 
because we do not have enough national TV at some point. But it 
does proliferate all of the elements' overhead when you start 
to try to figure out whether an Internet ad, whether the people 
who then hit your targeted Internet location and went to your 
home page, were trying to see what it was, maybe we reach the 
curious.
    But there is a whole other level of study that has to 
occur. Where at least with the TV ads, you have a very direct 
hit, it is a measurable type of thing, we can see it is having 
movement. And to the degree we take the dollars out of 
something that has measurably been moving the attitudes, it 
becomes tougher.
    It is not that it is not changing. But I dare say that the 
average campaign running for Congress and trying to reach 
people and do the segments are not taking our TV dollars and 
going beyond the threshold of the number of people we need to 
reach to move it to Internet. If we are going to move to 
Internet, we add it to our TV dollars because we know we cannot 
get elected without the basic television.
    Mr. Walters. Well, again, you are thinking of this in terms 
of audiences to get elected.
    Mr. Souder. I am thinking of segments. I said segments.
    Mr. Mica. I used to be in the communications business. I 
sold cell phones when they were as big as a brick. And who 
would have thought you would have wireless and all of that in a 
little gadget like this some 10 or 12 years later. When I 
thought of a Media Campaign and proposed legislation, I had it 
fully funded by the public service obligation, actually donated 
time from television. And at that time, we did not have the 
cable proliferation that we have now. I never envisioned public 
money. That was the Clinton administration. The compromise was 
this 50-50 solution.
    I would like to go back and get even more public service 
time, because the public does own the airwaves, we did control 
them, and they have wormed their way out. They used to put a 
few ads on between like midnight and maybe 6 a.m., but they 
were never on other times. And each time they have diminished 
their requirement through a little effective lobbying or 
scamming out. But we do control TV, and, as I understand it, 
the Federal Communications Commission is still in business. But 
they do not participate as we intended.
    But the markets do change and the target audiences that we 
are trying to reach do change. I think we need to have some of 
that flexibility, not be stuck in another era. So, I yield back 
the balance of my time. Thank you.
    Mr. Souder. Dr. Walters, do you want to have any closing 
comments?
    Mr. Walters. No. Again, we want to make this work, as you 
want to make this work. We have to be able to target the 
audience and we have to be able to do that in a way that is 
cost-effective. I think, as you know, if you look at the 
overhead costs or the production costs with this campaign vis-
a-vis other public service campaigns, it compares very 
favorably. We will continue to try to make optimal use of those 
resources.
    Again, I will live and die, as I think the program will, on 
does it produce declines in drug use by young people. If it 
does not, then it is not enough. It is not the only thing that 
is going to do that. But if drug use is not going down, I think 
we are going to be looking at all these programs and saying, 
you know, why are we making this expenditure, or why are we 
running it this way.
    All I am asking is at a time when we have drug use going 
down, in a time we have it going down at a rate that we have 
not had in a decade, all those same surveys show that exposure 
to the campaign is a significant contributing factor to the 
knowledge, information, and motivation of young people who are 
reducing their attractiveness to drugs. I want to be able to 
follow through with it. And I am just asking you to please 
consider modifying with a word or two here our ability to do 
this under the provisions of the reauthorization act.
    I cannot help but say, for just a moment, to say thank you 
to Mr. Mica. He is the first Member of Congress I have talked 
to who has a HIDTA who is willing to be quite that frank. The 
chairman has always been frank on this, but there always was, 
as he said, I am not somebody who has grabbed my authority to 
make myself a HIDTA. I appreciate your willingness to reform.
    Believe me, I certainly understand how hard the reform is. 
But, again, as with some of you, I have done this because I 
think it is necessary for us to be honest about what is going 
to move the ball ahead. We may disagree, we may not win some of 
these, there may be times, but ultimately, if we are going to 
make the drug problem smaller, we have to do things that are 
effective.
    And if we dance around them, if we are afraid of politics 
or afraid of people being rough with us, or we cannot take 
phone calls where we are candid to each other, we should not be 
doing this, we are not worthy of the public trust that we have 
maintained. And for those people who have a problem with that 
and go around us, I have told them if you want to stab me in 
the back you are going to have to use old holes because it has 
been done before and it is not going to make a difference. We 
are going to continue to use the authority that we have to tell 
the truth.
    And I want to thank both of you who have been stalwarts in 
this, and I think by your comments today show that you have 
done that again. So we look forward to working with you. We 
hope we can work out these differences because we want a 
stronger office, you want a stronger office, and I want to move 
as much on consensus as we can.
    Mr. Souder. OK. Thank you for coming today.
    Our second panel, if you could come forward, is Mr. Tom 
Carr, Director of the Washington-Baltimore HIDTA, on behalf of 
the National HIDTA Directors' Association; and Mr. Stephen 
Pasierb, president and CEO of the Partnership for a Drug-Free 
America.
    If you would remain standing, we will administer the oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that both witnesses 
responded in the affirmative.
    Mr. Carr, if you could go ahead with your testimony. As we 
noted at the beginning, your full written testimony will be in 
the record. So feel free to do a summary and make whatever 
comments you want.

 STATEMENTS OF TOM CARR, DIRECTOR, WASHINGTON-BALTIMORE HIDTA, 
  ON BEHALF OF THE NATIONAL HIDTA DIRECTORS' ASSOCIATION; AND 
 STEPHEN J. PASIERB, PRESIDENT AND CEO, PARTNERSHIP FOR A DRUG-
                          FREE AMERICA

                     STATEMENT OF TOM CARR

    Mr. Carr. Thank you, Chairman Souder. It is an honor for me 
to appear before you today to discuss the reauthorization of 
the Office of National Drug Control Policy and the High 
Intensity Drug Trafficking Area program.
    ONDCP and the HIDTA program are a vital part of our 
Nation's efforts to address the numerous threats that illegal 
drugs and drug trafficking pose to the safety and well-being of 
our communities and citizens. My colleagues and I at the 
National HIDTA Directors' Association are impressed with the 
ONDCP reauthorization legislation that you have recently 
introduced in the House of Representatives and believe it is an 
important step forward for both ONDCP and the HIDTA program.
    Collectively, my fellow directors and I represent over 
1,000 years of law enforcement experience, many of which are in 
the drug enforcement field, and we feel ultimately that the 
provisions that are being provided in this bill will buildupon 
ONDCP, the HIDTA program, and help our great Nation.
    The proposed ONDCP reauthorization bill contains numerous 
amendments and additions to the current authorizing language 
that should benefit both programs. Improving coordination of 
drug law enforcement activities among Federal, State, and local 
agencies has proven to be one of the HIDTA program's most 
valuable tools for enhancing the effectiveness and efficiency 
of drug enforcement efforts. This bill promotes enhanced 
interagency coordination. We are certainly happy to see that.
    Developing and sharing accurate, timely information and 
intelligence on drug trafficking and drug-related crime 
activities is essential to the continued success of drug law 
enforcement efforts. The HIDTA program has emerged as a 
national leader in the field of drug information and 
intelligence, operating over more than 50 regional law 
enforcement intelligence centers and promoting a wide variety 
of initiatives aimed at expanding information sharing.
    Performance measurement, and I wish Mr. Mica had stayed 
around, performance measurement and data collection are two 
areas in which the HIDTA program has excelled in the past 2 
years. The directors of the Nation's 28 HIDTA regions are 
actively engaged in efforts to enhance the program's 
performance management process. During my testimony before this 
committee on March 10, I provided the committee with an 
overview of the performance management process that we 
developed and implemented in 2004, and next week, as you know, 
we are going to release the results of that showing the I think 
fantastic outcomes that many of our HIDTAs and the HIDTA 
program as a whole have achieved.
    Finally, this bill will implement some worthwhile changes 
internal to the HIDTA program itself. In many cases, the bill's 
language clarifies and expands existing program elements, such 
as the HIDTA designation process and the performance management 
process. The bill also authorizes HIDTA regions to support 
counterterrorism efforts and witness protection programs.
    The requirement for ONDCP to issue an annual report to 
Congress on consultative activities surrounding the preparation 
of the National Drug Control Strategy is a welcome addition 
that is obviously designed to promote collaborative efforts 
among ONDCP and State and local agencies and organizations. 
This is entirely appropriate in light of the fact that State 
and local governments and community organizations are generally 
the first to identify emerging drug trends and bear much of the 
responsibility for addressing the consequences of drug use and 
drug trafficking.
    The GCIP provisions included in this bill will be of great 
benefit to law enforcement. My fellow directors and I welcome 
the efforts to address these issues through the GCIP and look 
forward to playing an active role in its development.
    The Southwest Border Counternarcotics Strategy proposed in 
the bill is another outstanding idea. The increasing volume of 
illegal drugs, violent gangs, illegal immigrants crossing into 
the United States from Mexico requires this increased border 
law enforcement effort. HIDTA directors strongly support this 
provision and want the committee to know that they are eager to 
volunteer their time and talent to participate in shaping this 
strategy from its inception.
    One of the most significant obstacles for HIDTA regions is 
the limited amount of reliable and timely data available on 
many key aspects of drug use and trafficking. The HIDTA 
directors encourage you to consider insert language authorizing 
the Director to promulgate a standard data reporting format 
that will simplify the data collection process and the analysis 
process.
    The bill's provisions regarding performance measurement are 
especially welcome. The requirement that ONDCP regularly 
evaluate the usefulness and effectiveness of its own 
performance measurement systems and techniques will prove 
helpful in promoting the development of better tools for 
measuring program results and relevant drug-related trends.
    Let me turn for a second just to the HIDTA program itself. 
The statement of purpose of the HIDTA program incorporated 
within this bill we feel is excellent. It accurately captures 
the program's current purpose and does a fine job of 
recognizing the very needed changes that have taken place 
within the HIDTA program since its establishment in 1988.
    The new requirements for regulations governing the HIDTA 
designation process mandating a review of designation requests 
by a panel of independent experts are a welcome change from the 
loosely organized designation process that has been used by 
current and past administrations. Perhaps if we had this 
earlier we would not be in sort of the mess we are in today, 
one might say. Further, the HIDTA directors are pleased to see 
that drug distribution activities and the harmful impacts of 
illegal drugs will be added to the list of factors to be 
considered in the designation decision.
    The provisions authorizing counterterrorism assistance will 
be a useful addition to the HIDTA program. Many regions already 
sharing information with counterterrorism task forces provide 
support for their cases on a routine basis. This provision will 
officially recognize and codify these efforts.
    Our association is encouraged by the bill's language to 
cause the Director and the Attorney General to work together to 
ensure DEA's participation in HIDTA's intelligence support 
centers. DEA plays a major role in most HIDTAs but its role 
could be even greater if it provided personnel and data bases 
to augment the work of these centers.
    The requirement for an assessment of intelligence sharing 
efforts is another wise addition to the bill, given the number 
of intelligence sharing systems and programs that have 
multiplied over the years.
    Witness intimidation has become a very prominent issue in 
many of our Nation's communities, especially those suffering 
from increases in gang-related violence, as in Washington, DC, 
northern Virginia, and Baltimore. As the Director of the 
Washington-Baltimore HIDTA, I want to personally commend you, 
Chairman Souder and Ranking Member Cummings, for your undivided 
attention to this issue and your sincere commitment to 
addressing it through the Dawson Family Community Protection 
Act. This act will enhance protection for our most troubled 
communities and, in addition, fund efforts to promote witness 
protection.
    The HIDTA Directors' Association wholeheartedly supports 
this proposed reauthorization bill. The bill recognizes the 
need for improved coordination for drug enforcement, drug 
intelligence activities, and proposes numerous constructive 
responses to address these needs. The bill's performance 
measurement and data collection provisions will reinforce the 
HIDTA program's recent advances in performance measurement by 
providing reliable and timely data. It also proposes worthwhile 
changes and additions to enhance the operation of the HIDTA 
program that will continue to build on its considerable 
successes and help to adapt to the ever-changing nature of the 
illegal drug trade.
    We firmly believe this bill represents a major step forward 
in the evolution of ONDCP and the HIDTA program. Thank you for 
allowing me this opportunity to share our views with this 
committee.
    [The prepared statement of Mr. Carr follows:]

    [GRAPHIC] [TIFF OMITTED] T3688.020
    
    [GRAPHIC] [TIFF OMITTED] T3688.021
    
    [GRAPHIC] [TIFF OMITTED] T3688.022
    
    [GRAPHIC] [TIFF OMITTED] T3688.023
    
    [GRAPHIC] [TIFF OMITTED] T3688.024
    
    Mr. Souder. Thank you, Mr. Carr.
    Mr. Pasierb, you are recognized.

                STATEMENT OF STEPHEN J. PASIERB

    Mr. Pasierb. Thank you, Mr. Chairman. Thank you for 
inviting me. And before I get into my testimony, I really want 
to thank the subcommittee, and especially you, Mr. Chairman 
and, via staff, Ranking Member Cummings, for your incredible 
leadership on this issue. It has been an honor to work with you 
over the past several years.
    The Partnership, as you know, is a coalition of volunteers 
from throughout the communications industry known for research-
based education campaigns that have proven to be effective both 
in changing attitudes and in changing behaviors, reducing 
illicit drug use. The Partnership serves as the primary 
creative partner to ONDCP on the National Youth Anti-Drug Media 
Campaign. Congress authorized the campaign knowing very clearly 
that the private sector, working through the Partnership, had 
agreed to contribute its time, talent, and expertise in really 
the truest sense of a public-private partnership. The 
contributions to date have exceeded $125 million. And as a 
nonprofit organization, we have also invested millions of our 
donors' dollars in servicing the Media Campaign.
    My testimony will focus on the campaign's effectiveness in 
reducing the demand for illicit drugs and the country's ongoing 
need for such a pervasive demand reduction program. This media-
based education program is a crucial component of America's 
drug strategy. Since the campaign started, the leading national 
studies that track teen drug use have all noted substantial 
declines.
    Allow me to offer evidence on the effectiveness of the 
campaign drawn from the 2004 Partnership Attitude Tracking 
Study. This is the 17th wave of a national study on attitudes 
and drug use among 7th through 12th graders in public, private, 
and parochial schools. And there are really three key points.
    First, significantly fewer teens are using marijuana today 
than when compared with 1998, the year the Media Campaign 
launched. And marijuana risk attitudes among teens have 
improved significantly over the same time. As you know, the 
Media Campaign is focused heavily on preventing use of 
marijuana, as this comprises the majority of youth drug use.
    The data continues also to report strong correlations 
between heavy exposure to the Media Campaign's advertising and 
lower drug use and stronger anti-drug attitudes among teens. In 
2003, Roper ASW reported that teens exposed frequently to the 
ads are far more likely to have stronger anti-drug attitudes 
and are up to 38 percent less likely to use drugs.
    Finally, the third point, the number of teenagers reported 
learning a lot about the risks of drugs via television 
commercials has increased steadily since the launch of the 
Media Campaign. In fact, for the first time, teens are now more 
likely to cite TV commercials as a key source of anti-drug 
information than any other source. And Mr. Souder, the last 
time we were together we lamented together the fact that 
families are no longer in first place, and that is something we 
have absolutely got to change.
    The 2004 Monitoring the Future Survey from NIDA also showed 
that over the last 3 years alone there has been a 17 percent 
decrease in teen drug use. That translates into 600,000 fewer 
teens than in 2001. It is also important to note that the Media 
Campaign was the single largest prevention effort in the 
marketplace during that time. Monitoring the Future 
specifically credits the Media Campaign with those trends.
    Mr. Chairman, you are not going to find a more efficient, 
more effective way to educate teenagers about the dangers of 
illicit drugs. We know anti-drug advertising, when grounded in 
research and sound strategy, when executed creatively, and 
tested for maximum impact, and delivered in appropriate and 
sustained levels of media, does indeed work.
    Also, the ONDCP Media Campaign perfectly complements the 
ongoing public service campaigns of the Partnership. Together, 
we cover the waterfront of issues, from marijuana to ecstasy, 
to methamphetamine, and other illicit drugs. The Partnership is 
also moving to take on emerging threats like prescription drug 
abuse and steroids in the media time that is donated to us, as 
well as redoubling our existing efforts on methamphetamine.
    We want to thank you for the thoughtfulness that was put 
into crafting H.R. 2829. For the Media Campaign, this bill 
emphasizes accountability, it clarifies our roles and 
responsibilities, and it correctly identifies the Director of 
ONDCP as the single person responsible for the major decisions 
about the strategic direction of the campaign. The language 
offers flexibility to the campaign coordinators, while ensuring 
focus.
    We are most appreciative that the legislation reaffirms 
private sector participation, through the Partnership, as this 
remains a central item and also was what the original 
authorizers set forth for the campaign. Also, we want to thank 
you for reaffirming the dollar-for-dollar media match that 
further makes this program among the most efficient anywhere in 
government.
    One area where we also express concern is in the 
requirement that 82 percent of the appropriated funds be 
exclusively allocated for the purchase of advertising time at 
the $120 million appropriation level. We understand and 
appreciate the committee's intent to emphasize the very real 
importance of message delivery, yet down at $120 million we 
believe that level of spending requirement will also constrain 
the campaign.
    In particular, limiting the ability to thoroughly test all 
the new ads for all media, mainstream and niche; providing the 
production for sufficient ads necessary for us to keep the 
campaign fresh; and limiting the ability to create special 
campaigns for traditional media that serve minority and ethnic 
populations, as well as the aforementioned need to be on the 
Internet with compelling banner advertising and other content.
    Given the campaign's current funding level of $120 million, 
we would suggest rather the broader definition of appropriate 
expenditures under an 82 percent ceiling, a redefinition if you 
will, that would include all advertising services required to 
ensure volume and effectiveness of messages and content placed 
into the Media Campaign's time and space. That is the only 
concern.
    Again, we support this legislation, and thank you and the 
committee for advancing the reauthorization bill. The Media 
Campaign is exceptionally efficient, costing less than $6 per 
year, per teen to implement. Our Nation could spend Federal 
resources in countless ways to educate teens about the dangers 
in drugs. We will, however, find a more efficient and effective 
way to do so than through the power of mass media.
    Demand reduction is a critical element in a balanced effort 
to address the drug problem. The National Youth Anti-Drug Media 
Campaign has proven its value in the same trusted national 
research studies that have guided the drug field over the past 
three decades. It helps stem the inflow of young lives into 
drug use. Fewer drug users is of benefit not only to the health 
of our Nation, but also to all of those working in law 
enforcement and in drug treatment.
    The process of changing social attitudes and behavior is 
ongoing. It requires relentless persistence because right 
behind the current generation of kids is another one that is 
going to need to learn about the risks of drugs all over again. 
We, as a country, have a responsibility to offer these kids a 
solid education about the dangers of drugs before they take the 
path of learning about it on their own.
    The Media Campaign is an imperative voice consistently 
educating teens and their parents. It is a reliable voice, one 
that parents and children have grown to trust. You have our 
full support as this bill moves forward. Thank you.
    [The prepared statement of Mr. Pasierb follows:]

    [GRAPHIC] [TIFF OMITTED] T3688.025
    
    [GRAPHIC] [TIFF OMITTED] T3688.026
    
    [GRAPHIC] [TIFF OMITTED] T3688.027
    
    [GRAPHIC] [TIFF OMITTED] T3688.028
    
    [GRAPHIC] [TIFF OMITTED] T3688.029
    
    [GRAPHIC] [TIFF OMITTED] T3688.030
    
    [GRAPHIC] [TIFF OMITTED] T3688.031
    
    [GRAPHIC] [TIFF OMITTED] T3688.032
    
    [GRAPHIC] [TIFF OMITTED] T3688.033
    
    Mr. Souder. Thank you. I would like to ask a couple of 
questions on the 82 percent so I understand this better. In 
your testimony you said it limits the providing for the 
production of sufficient ads necessary to keep the campaign 
fresh. Is that not donated?
    Mr. Pasierb. A lot of it is, but the production costs, if 
we need to go out and rent a crane or something like that, a 
lot of that is reimbursed. The creative strategy, the creative 
ideas, all of the work that goes into bringing the ad ideas 
forward, are all donated. But when the Office of National Drug 
Control Policy goes out and says we want to produce this one or 
that one, a majority of the out-of-pocket costs are picked up, 
the hard costs that people would have to incur. But the time, 
the talent, the energy, the marketing wisdom are all donated 
and continue to be donated.
    Mr. Souder. What are the hard costs on Internet?
    Mr. Pasierb. A lot of those advertisements that are done 
are done through some of the ONDCP contractors because they 
require computer programming, Internet-competent people. And in 
the Internet space there is not a lot of volunteerism.
    Mr. Souder. That is what I was going to ask. How come? Why 
should the ad agencies be willing to contribute for television 
and not for other?
    Mr. Pasierb. We have seen, interestingly enough, that the 
traditional advertising world, the advertising agency world 
continues to make a big commitment to do the print, to do the 
television, to do the radio. That same sense of community and 
volunteerism, if you will, does not necessarily exist in the 
Internet space. And ONDCP, we think rightfully so, has gone out 
and got the best and brightest talent by having to pay for it.
    Mr. Souder. Why is that same support not there in the 
people with the hard equipment? Why should the people donate 
creatively but not donate equipment?
    Mr. Pasierb. Well, because the people who--they are rental 
companies. If I say to you I will do everything I need to do to 
throw you a wedding, but then I have to go out and rent the 
chairs and rent the tent and rent the glasses, now you have 
made me pay $20,000 for your wedding.
    Mr. Souder. What I mean is, why should we expect an 
advertising agency to donate their time, but the people who are 
leasing the sound equipment not to donate?
    Mr. Pasierb. There is a huge level of volunteerism within 
that, but there are also a lot of hard costs. The average 
television commercial in America costs well over $300,000 to 
make, and ONDCP is spending far, far less than that to do the 
production of each one. So they have done, in our view, a 
superb job of getting as much volunteerism as humanly possible. 
But the nature of literally producing a miniature movie and 
doing dozens of them every year means that not everything can 
be donated.
    Mr. Souder. How much in, say, a Pepsi ad or a typical ad 
would be hard costs versus soft costs?
    Mr. Pasierb. An average Pepsi campaign may have million 
dollar productions in it, which also the agency had many 
hundreds of thousands of dollars that they charged for it as 
well. We eliminate the hundreds of thousands of dollars, we 
would never do a million dollar production, and we get a level 
of volunteerism that Pepsi could never realize, and the ability 
to choose a different advertising agency for each one.
    Mr. Souder. And it is good to know that there are hard cost 
contributions. Maybe we can get that information. But in 
reality, a creative person donating their time is their hard 
cost.
    Mr. Pasierb. Yes, it is. It is their brain, their most 
valuable asset.
    Mr. Souder. It is how many hours a day they can work and 
how much creative energy they have, and for an advertising 
creative person or a sound producer who is donating his time, 
in your testimony you said sound producers are donating their 
time, that is their money. I was in retailing. My hard costs 
might be if I have to buy a dresser to sell and I have to rent 
a truck.
    But that is because I deal in hard products. But somebody 
who deals in soft markets has this distinction of people who 
have soft things, oh, they are just donating their time, that 
is different than somebody else donating hard goods. I do not 
see the distinction. Money is money to the different groups.
    The question is how much, and I do not know the answer, how 
much we have leveraged that. But if we are going to get 
squeezed here, ultimately the point when you ask the taxpayers 
to participate should be to have as much of that as possible go 
over the air. Now if we say over the air should be multiple 
things other than television, then that is another decision. 
But it should be in purchase time and the goal was to have the 
minimal be in the actual production.
    Mr. Pasierb. I am sure our colleagues at ONDCP can pull 
those numbers together. And I know for a fact there is still an 
extraordinary level of volunteerism.
    Mr. Souder. Would you not agree that the more things you 
try to do the higher percentage your overhead becomes?
    Mr. Pasierb. My feeling is that we go after a very elusive 
target--the American teenager--who on his couch is probably 
talking on his cell phone, has a laptop computer in his lap, 
and is flipping through the television channels. We need to 
capture that child's attention any way we can.
    Clearly, television has given us the biggest lift and it 
really is still the majority piece of this campaign, as proven 
by the research. But there are a lot of kids who we cannot 
reach that way and the Internet is something that has gone from 
being kind of a sucker's bet maybe 5, 6 years ago to being a 
mainstream medium for teens. We would really have to gauge our 
ability to be effective to continue to drive the trends if we 
used one medium versus another.
    Mr. Souder. Let me ask another question with that. The 
Director implied that in other words, what about the marketing 
research firms and the test firms? Are they donating their time 
like the producers and the creative talent are donating?
    Mr. Pasierb. No, they are not. They are contracted through 
ONDCP for their services.
    Mr. Souder. Why are they contracted and not leveraged like 
the creative people?
    Mr. Pasierb. To tell you the truth, I am not sure other 
than that is an industry which none of us have really any sway 
over the people who can put together a group of teenagers in 
Tacoma, WA, that we can then go talk to for an hour. That has 
never been an industry for us, the Ad Council, anywhere in the 
public service lexicon that has necessarily volunteered those 
kind of services.
    Mr. Souder. When the Partnership was started, what started 
the concept of donated time out of the Partnership, and why did 
the creative industry respond differently than the market 
research industry and the test industry?
    Mr. Pasierb. To tell the truth, I am not sure. But clearly, 
when the Partnership was started the media community came 
together and said we will provide the time, the advertising 
community came together and said we will provide the content, 
and the majority of the Partnership's budget was spent on 
things like research and testing that they could not obtain for 
free.
    In the early days, what really made the Partnership 
struggle was finding hundreds of thousands of dollars to pay a 
research firm to be able to prove that the good works were 
indeed effective. And that is in my view just kind of like 
grass being green, that is kind of the way the world has been. 
Maybe it is not right, but that is the way it has been.
    Mr. Souder. In the Media Campaign, I did not know this 
answer and I cannot recall it here, but it sets up my next 
question, that often there is 15 percent that goes to the 
account for placement of large contracts, 10, or 7\1/2\, or 5, 
or whatever. Is that completely waived in the case of the 
National Media Campaign, or is that still there?
    Mr. Pasierb. I believe so. I believe the contracts that 
ONDCP has with their advertising contractor are for services. 
And that advertising contractor also has to deliver to ONDCP 
that 100 percent match, or more than 100 percent, which the new 
contractor is doing. So that arrangement, that ability just to 
take 15 percent off the top does not exist.
    Mr. Souder. So there is no other way for the agencies that 
are donating their creative time to recoup any costs?
    Mr. Pasierb. No. No. And the government has a very hard 
system for the costs that they can recoup. If they go and park 
in a parking garage, for example, at the shoot, they cannot get 
paid for that. It has to be for the core pieces of the 
campaign.
    Mr. Souder. Well, there is an incredible inequity here. 
Basically, if we are willing to pay for it, nobody is going to 
donate their services. If we are willing to pay for the market 
research, if we are willing to pay for hard equipment, the 
question is why is one group being treated differently than 
another and should we be leveraging that harder. Because the 
goal here is to minimize overhead costs and maximize placement 
costs. That is the bottom line.
    Mr. Pasierb. Yes. In our pro bono campaigns, we have the 
luxury of saying we are going to have to wait a couple of 
months until somebody volunteers to do that; we are ready, we 
have all the pieces in place, but until somebody volunteers a 
studio we are stuck. The National Youth Anti-Drug Media 
Campaign cannot work on that kind of paradigm because they have 
bought the hole in the American Idol that they need to fill 
tomorrow night.
    Mr. Souder. Yes. That is a fair point.
    Mr. Carr, do you have any--I was kind of taken aback by 
some of Mr. Mica's comments. You went through most of your 
prepared testimony, but I wonder if you had anything to add to 
that. You said that the study was coming on the data. But the 
second thing is, in the broader question, which I think is a 
legitimate question that Mr. Cummings was raising too, is the 
net impact of what has happened in this debate in Congress is 
that HIDTAs are more solidified, at least for short term, and 
there is probably going to be, with the reduction in Burn grant 
and COPS and other programs, more pressure for more HIDTAs 
rather than less.
    The initial direction of the HIDTA program was to be High 
Intensity Drug Trafficking Areas. That has clearly evolved over 
time as more Members have more regional concerns, whether it is 
meth in their area which may or may not be tying to the High 
Density Trafficking Areas but more regional. How do you see the 
HIDTAs, and do you see this eventually more or less absorbing 
the drug task forces in the different regions?
    How do we work this in with various Justice Department 
programs that are out there in meth, that are out there in 
other programs that are being independently created? How can we 
integrate this better given the fact that you are placed under 
ONDCP to focus predominantly on narcotics but we have this 
proliferation of drug task forces and other things around the 
country that may or may not be integrated?
    Mr. Carr. Well, that is a good question. I think the stars 
have aligned. There were a lot of things going on that for one 
reason or another fortuitously came together at this point in 
time. Perhaps what the Director did, as you pointed out, may at 
some point in time earn him five stars. I do not know if we are 
ready to give it to him right away.
    However, for 2 years we worked on and developed a 
performance measurement process. It is an honest process 
because it does what it is supposed to do. It shows what the 
individual HIDTAs do, what they do not do, whether they are 
efficient, whether they are effective. We have good, solid 
outcome measures. It collectively shows what the program itself 
as a whole is able to accomplish.
    Now we have 1 year's worth of data. Is that sufficient data 
to make long range projections on? Not at this point. But we 
are in the process of gathering data for the second year. I do 
not think we are far out from doing that. The point is, the 
system works well.
    If the Burn grant program goes away in terms of drug task 
forces, we are the only game in town. So what that means is 
that others that heretofore may not have been as willing to 
collaborate with HIDTA-funded task forces will now, in order to 
keep functioning, I think be more in a position where they are 
by necessity, for survival, going to turn to the HIDTA task 
forces and seek ways in which they can leverage HIDTA dollars 
or HIDTA resources. Because as you correctly pointed out, much 
of what we do is take a few HIDTA dollars and leverage millions 
of dollars to accomplish what we want to accomplish.
    We have over 50 HIDTA intelligence centers. They are 
sharing information. And I would say they are functioning on an 
above average level but they can be much better. This bill, 
through the GCIP plan that you mention in here, through the 
Southwest Border Strategy, through the inventory, I mean, 
common sense inventory of task forces, whether they be Federal 
or merely State and local task forces, will enable us I think 
to get a better handle on what these centers should do, what 
they do do, and then come up with a better intelligence-sharing 
plan. So again, I think the stars are aligning, which will 
enable us to accomplish all the things that heretofore we have 
had, just like the intelligence community, had some obstacles 
blocking our ability to collect, share, and manipulate 
information.
    Mr. Souder. Clearly, we have an incredible disconnect right 
now between Congress and the administration on how to focus on 
meth. The administration has no national meth strategy, I think 
it is fair to say that. In fact, they are not even sure what 
their own agencies are doing in meth because of freelancing at 
the local level because of local demand right now. We have 
these meth Hot Spots programs being funded.
    How do you think the HIDTAs are working inside this? Do 
different ones have meth subgroups? I know I have met a few 
like that. How do you suggest, if we come up with a kind of 
meth strategy, how should HIDTA fit into the meth strategy?
    Mr. Carr. Well, I can show you some pretty remarkable data 
that we just put together as a result of our performance 
measurement, because performance measurement is not only used 
to show whether someone is efficient or effective, it is also 
strategic. We used the national meth and clandestine lab 
striations to identify the sizes of labs, from zero to 2 ounces 
all the way up to the top level which is the super lab.
    If you read the National Meth Strategy, they talked about 
super labs activity in the United States decreasing, 
diminishing, and suggesting that meth super lab activity is 
being conducted outside the United States. What they failed to 
take notice of, and our data clearly shows, is that while super 
meth labs did, in fact, decrease, the lab level just below that 
increased significantly.
    We have mapped this and we mapped it in relation to HIDTA 
seizures. We can show that, for example, the Appalachia HIDTA 
has become inundated with zero to 2 ounce labs, the Midwest 
HIDTA, up and through your area, Mr. Chairman, has now become a 
hot bed of the lab level just below the super lab.
    So I am not so sure that meth production has decreased. 
What I see are signs that the size of the labs may have 
decreased but the number of labs has increased. So I think we 
have a lot of data to contribute to the development of a 
strategy, and I think we have data that can show where some of 
the focus ought to take place within the confines of the 
continental United States.
    Mr. Souder. Thank you. I thank both of you for 
participating and continuing to work with our staff and us as 
we move this bill tomorrow and as we most likely head to the 
floor and conferences, which will be the longer term strategy.
    Mr. Carr. Thank you very much, sir.
    Mr. Pasierb. Thank you.
    Mr. Souder. With that, the subcommittee stands adjourned.
    [Whereupon, at 5:10 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
